                   U.S. Department of Agriculture

                       Office of Inspector General
                                 Northeast Region




        Audit Report

  Food and Nutrition Service
     Financial Statements
for Fiscal Years 2008 and 2007




                       Report No.27401-33-Hy
                              November 2008
                            UNITED STATES DEPARTMENT OF AGRICULTURE

                                     OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250


November 7, 2008


REPLY TO
ATTN OF:      27401-33-Hy

TO:           Enrique Gomez
              Acting Administrator
              Food and Nutrition Service

ATTN:         David Burr
              Acting Deputy Administrator
                for Financial Management
              Food and Nutrition Service

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Food and Nutrition Service (FNS) Financial Statements for Fiscal Years 2008 and
              2007


This report presents the results of our audit of FNS’ financial statements for the fiscal years
ending September 30, 2008 and 2007. The report contains an unqualified opinion and the results
of our assessment of FNS’ internal control over financial reporting and compliance with laws
and regulations.

Based on the information provided during the audit, we are making no further recommendations
within this report.

We appreciate the courtesies and cooperation extended to us during the audit.

Attachment
Executive Summary
Food and Nutrition Service Financial Statements for Fiscal Years 2008 and 2007
(Audit Report No. 27401-33-Hy)

Purpose             Our audit objectives were to determine whether (1) the financial
                    statements present fairly, in all material respects, in accordance with
                    generally accepted accounting principles, the assets, liabilities, and net
                    position; net costs; changes in net position; and budgetary resources;
                    (2) the internal control objectives for financial reporting were met, and
                    (3) the Food and Nutrition Service (FNS) complied with laws and
                    regulations for those transactions and events that could have a direct
                    and material effect on the financial statements. We also determined that
                    the information in the Management Discussion and Analysis was
                    materially consistent with the information in the financial statements.

                    We conducted our audit at the FNS National office in Alexandria,
                    Virginia. We also performed site visits to the Federal Reserve Bank of
                    Richmond and obtained data from selected FNS Regional offices.

Results in Brief    In our opinion, FNS’ comparative financial statements for fiscal years
                    (FY) 2008 and 2007, including the accompanying notes, present fairly
                    in all material respects, the assets, liabilities, and net position of FNS,
                    as of September 30, 2008, and 2007, and its net costs, changes in net
                    position, and budgetary resources, in conformity with accounting
                    principles generally accepted in the United States of America.

                    As discussed in note 1 to the financial statements, in accordance with
                    the United States Standard General Ledger and the Treasury Financial
                    Manual, FNS has clarified its reporting of benefits for grant accruals.
                    The changes in the presentation of these benefits have no impact on the
                    amounts reported for Total Liabilities. In 2007, grant accruals were
                    reported as Accounts Payable. In 2008, these accruals are reported as
                    Benefits Due and Payable and Other Liabilities.

                    In our ―Report on Internal Control Over Financial Reporting‖ we
                    reported that FNS concluded that the agency can currently provide
                    reasonable assurance relating to internal controls, financial reporting,
                    and financial systems for FY 2008; however according to FNS, the
                    agency has reached a critical point regarding necessary administrative
                    resources.

                    In our ―Report on Compliance with Laws and Regulations,‖ we
                    reported FNS’ core financial management system is in substantial
                    compliance with the Federal Financial Management Improvement Act
                    of 1996. We did report that the agency was not in full compliance with
                    the Improper Payments Information Act of 2002. Specifically, FNS has
                    not reported payment errors for one segment of the Special

USDA/OIG-A/27401-33-Hy                                                                 Page i
                   Supplemental Nutrition Program for Women, Infants, and Children and
                   one segment of the Child and Adult Care Food Program. FNS has plans
                   for reporting this information in future years. In addition, FNS has not
                   reported the amount of actual improper payments the agency expects to
                   recover and how it will go about recovering them. For the majority of
                   the programs, FNS does not have the statutory authority to pursue
                   collection of improper payments identified on the basis of statistical
                   sampling or estimation procedures.




USDA/OIG-A/27401-33-Hy                                                             Page ii
Abbreviations Used in This Report


FDCH               Family Day Care Homes
FFMIA              Federal Financial Management Improvement Act of 1996
FNS                Food and Nutrition Service
FY                 Fiscal Year
IPIA               Improper Payments Information Act of 2002
OMB                Office of Management and Budget
RSSI               Required Supplemental Stewardship Information




USDA/OIG-A/27401-33-Hy                                                    Page iii
Table of Contents

Executive Summary .................................................................................................................. i

Report of the Office of Inspector General .............................................................................. 1

Report of the Office of Inspector General on Internal Control Over Financial Reporting ... 3

Report of the Office of Inspector General on Compliance with Laws and Regulations ...... 5

Exhibit A –Financial Statements ............................................................................................. 7




USDA/OIG-A/27401-33-Hy                                                                                                    Page iv
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General

To:    Enrique Gomez
       Acting Administrator
       Food and Nutrition Service


We have audited the accompanying consolidated balance sheets of the Food and Nutrition
Service (FNS) as of September 30, 2008 and 2007, and the related consolidated statements of net
cost, changes in net position, and the combined statements of budgetary resources (hereinafter
referred to as the ―financial statements‖) for the fiscal years (FY) then ended. The financial
statements are the responsibility of FNS’ management. Our responsibility is to express an
opinion on the financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States, and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards and OMB Bulletin No. 07-04, as amended, require that we plan and
perform the audit to obtain reasonable assurance that the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles
used and significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of FNS as of September 30, 2008 and 2007, and its related net costs,
changes in net position, and budgetary resources for the years then ended, in conformity with
accounting principles generally accepted in the United States of America.

As discussed in note 1 to the financial statements, in accordance with the United States Standard
General Ledger and the Treasury Financial Manual, FNS has clarified its reporting of benefits
for grant accruals. The changes in the presentation of these benefits have no impact on the
amounts reported for Total Liabilities. In 2007, grant accruals were reported as Accounts
Payable. In 2008, these accruals are reported as Benefits Due and Payable and Other Liabilities.

As required by OMB Bulletin No. 07-04, as amended, with respect to internal control related to
performance measures determined by management to be key and reported in the Management’s
Discussion and Analysis section of the Performance and Accountability Report, we applied
USDA/OIG-A/27401-33-Hy                                                                     Page 1
certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. Our procedures were not designed
to provide assurance on internal control over reported performance measures; accordingly, we do
not provide an opinion on it.

As further required by OMB Bulletin No. 07-04, as amended, we considered FNS’ internal
control over Required Supplemental Stewardship Information (RSSI) by obtaining an
understanding of the internal control, determining whether these internal controls had been
placed in operation, assessing control risk, and performing tests of controls. Our procedures were
not designed to provide assurance on internal control over such RSSI; accordingly, we do not
provide an opinion on such controls.

We have also issued reports on our consideration of FNS’ internal control over financial
reporting and its compliance with certain provisions of laws and regulations. These reports are an
integral part of an audit performed in accordance with Government Auditing Standards. In
considering the results of the audit, these reports should be read in conjunction with this report.

Our report on internal control over financial reporting disclosed that FNS concluded the agency
can currently provide reasonable assurance relating to internal controls, financial reporting, and
financial systems for FY 2008; however, according to FNS, the agency reached a critical point
regarding necessary administrative resources.

Our report on compliance with laws and regulations disclosed that FNS was not in full
compliance with the Improper Payments Information Act. Specifically, FNS has not reported
payment errors for one segment of the Special Supplemental Nutrition Program for Women,
Infants, and Children and one segment of the Child and Adult Care Food Program. FNS has
plans for reporting this information in future years. In addition, FNS has not reported the amount
of actual improper payments the agency expects to recover and how it will go about recovering
them. For the majority of the programs, FNS does not have the statutory authority to pursue
collection of improper payments identified on the basis of statistical sampling or estimation
procedures.

This report is intended solely for the information and use by the management of FNS, OMB, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.


Robert W. Young /s/
Assistant Inspector General
 for Audit

November 7, 2008




USDA/OIG-A/27401-33-Hy                                                                     Page 2
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250


Report of the Office of Inspector General on
Internal Control Over Financial Reporting
To:    Enrique Gomez
       Acting Administrator
       Food and Nutrition Service

We have audited the accompanying consolidated balance sheets of the Food and Nutrition
Service (FNS) as of September 30, 2008 and 2007, and the related consolidated statements of net
cost, changes in net position, and the combined statements of budgetary resources (hereinafter
referred to as the ―financial statements‖), for the fiscal years (FY) then ended, and have issued
our report thereon dated November 7, 2008. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America, the standards applicable to
financial audits contained in Government Auditing Standards issued by the Comptroller General
of the United States, and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.
In planning and performing our audit, we considered FNS’ internal control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk,
and performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to
those controls necessary to achieve the objectives described in OMB Bulletin No. 07-04, as
amended, and Government Auditing Standards. We did not test all internal controls for financial
reporting as defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of
our audit was not to provide assurance on FNS’ internal control. Consequently, we do not
provide an opinion on internal control over financial reporting.
Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be significant deficiencies.
Under standards issued by the American Institute of Certified Public Accountants, a significant
deficiency is a control deficiency, or combination of control deficiencies, that adversely affects
the entity's ability to initiate, authorize, record, process, or report financial data reliably in
accordance with accounting principles generally accepted in the United States of America such
that there is more than a remote likelihood that a misstatement of the entity's financial statements
that is more than inconsequential will not be prevented or detected. A material weakness is a
significant deficiency, or combination of significant deficiencies, that results in more than a
remote likelihood that a material misstatement of the financial statements will not be prevented
or detected. The results of our tests disclosed no significant deficiencies. Because of inherent

USDA/OIG-A/27401-33-Hy                                                                     Page 3
limitations in any internal control, misstatements due to error or fraud may occur and not be
detected.
According to FNS, while the agency can currently provide reasonable assurance relating to
internal controls, financial reporting, and financial systems for FY 2008, they have reached a
critical point regarding necessary administrative resources. In 2007, FNS initiated a multi-year
effort on "Building a New FNS," which seeks to redesign the Agency's workforce, organizational
structure, processes, and systems to meet the program and organizational demands forced on the
Agency by diminished resources. This effort focuses on organization and process changes that
will position the Agency to be able to function optimally with projected workforce reductions.
Initial structural and process changes have already begun to occur including the realignment of
the Agency's senior management structure and a holistic redesign of Food Stamp Program’s
retailer authorization function. These initiatives, as well as others which will emerge from the
process over time, will fundamentally change the way in which FNS conducts its business
making it more nimble and tightly focused on core mission responsibilities.
FNS intends to continue to strive to insure the operational and fiscal integrity of the Nation's
nutrition safety net as it has throughout its 40 year existence. However, as noted in the
Management Discussion and Analysis, the agency's ability to continue to absorb administrative
resource reductions without impacting essential Agency functions is not unlimited.
Additional Other Procedures
As required by OMB Bulletin No. 07-04, as amended, with respect to internal control related to
performance measures determined by management to be key and reported in the Management
Discussion and Analysis, we obtained an understanding of the design of significant internal
controls relating to the existence and completeness assertions and determined whether they have
been placed in operation. Our procedures were not designed to provide assurance on internal
control over reported performance measures; accordingly, we do not provide an opinion on such
controls.
As further required by OMB Bulletin No. 07-04, as amended, we considered FNS’ internal
control over Required Supplemental Stewardship Information (RSSI) by obtaining an
understanding of the internal control, determining whether these internal controls had been
placed in operation, assessing control risk, and performing tests of controls. Our procedures were
not designed to provide assurance on internal control over such RSSI; accordingly, we do not
provide an opinion on such controls.
This report is intended solely for the information and use by the management of FNS, OMB, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.


Robert W. Young /s/
Assistant Inspector General
 for Audit
November 7, 2008
USDA/OIG-A/27401-33-Hy                                                                    Page 4
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General on
Compliance with Laws and Regulations
To:    Enrique Gomez
       Acting Administrator
       Food and Nutrition Service


We have audited the accompanying consolidated balance sheets of the Food and Nutrition
Service (FNS) as of September 30, 2008 and 2007, and the related consolidated statements of net
cost, changes in net position, and the combined statements of budgetary resources for the fiscal
years (FY) then ended (hereinafter referred to as the ―financial statements‖) and have issued our
report thereon dated November 7, 2008. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America, the standards applicable to
financial audits contained in Government Auditing Standards issued by the Comptroller General
of the United States, and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.
The management of FNS is responsible for complying with laws and regulations applicable to it.
As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of FNS’ compliance with certain provisions of laws,
regulations, contracts and agreements, and governmentwide policy requirements, noncompliance
with which could have a direct and material effect on the determination of the financial statement
amounts. We also obtained reasonable assurance that FNS complied with certain provisions of
other laws and regulations specified in OMB Bulletin No. 07-04, as amended, including
requirements referred to in the Improper Payments Information Act of 2002 (IPIA) and the
Federal Financial Management Improvement Act of 1996 (FFMIA), except for those that, in our
judgment, were clearly inconsequential. We limited our tests of compliance to the provisions
described in the preceding sentence and did not test compliance with all laws and regulations
applicable to FNS. However, providing an opinion on compliance with laws and regulations was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests disclosed two instances of reportable noncompliance with other laws and
regulations discussed in the second paragraph of this report that are required to be reported under
Government Auditing Standards and OMB Bulletin No. 07-04, as amended. We found that
although FNS has made significant progress towards compliance with the IPIA, they are still not
in full compliance with requirements regarding the design of program internal controls relating
to reporting improper payments. The IPIA requires that all programs susceptible to significant
improper payments report an estimate of the payments. FNS reported estimated payment errors
for the Food Stamp Program, the National School Lunch Program, and the School Breakfast
USDA/OIG-A/27401-33-Hy                                                                     Page 5
Program. However, the agency has not reported payment error rates for one segment
(certification errors) of the Special Supplemental Nutrition Program for Women, Infants, and
Children and one segment (claiming errors) of the Child and Adult Care Food Program. As
stated in FNS’ Management Discussion and Analysis, they currently have work underway to
report improper payment rates on certification errors. A preliminary estimate of erroneous
payments associated with certification actions will be available in August 2009, and the final
estimate will be available in 2010. Regarding claiming errors, FNS staff collected data involving
11 family day care sponsors nationwide and conducted a random sample of 268 records relating
to monitoring visits to Family Day Care Homes (FDCH). For each sample, FNS gathered the
FDCH’s meal claim data for the month of the monitoring visit and the month before. The
information is being analyzed and results will be available in early 2009. FNS also contracted to
develop and pilot test additional alternatives for determining the feasibility of estimating the risk
of claiming error by methods such as direct observation of FDCHs or by contacting parents to
determine if children were really present at a FDCH when claimed.
The IPIA also requires that agencies report the amount of actual improper payments the agency
expects to recover and how it will go about recovering them. FNS has not reported the amount of
improper payments they expect to recover for the Food Stamp Program, the Special
Supplemental Nutrition Program for Woman, Infants and Children, the Child and Adult Care
Food Program, the National School Lunch Program, and the School Breakfast Program.
As explained in Section 4 of the Management Discussion and Analysis;

       Current statutes only provide authority to recover improper payments identified through
       reviews, audits, or other operational oversight activity. As such, the Special Supplemental
       Nutrition Program for Woman, Infants and Children, the Child and Adult Care Food
       Program, the National School Lunch Program and the School Breakfast Program would
       need new statutory authority to pursue collection of improper payments identified on the
       basis of statistical sampling or estimation procedures.

       Establishing targets for recovery amounts in the Food Stamp Program is not feasible
       because it does not anticipate fluctuations in the economy and recipient population and
       does not take into account the variability of State collection systems.
Additionally, the results of our tests disclosed no instances in which FNS’ financial management
systems did not substantially comply with FFMIA.
This report is intended solely for the information and use by the management of FNS, OMB, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.


Robert W. Young /s/
Assistant Inspector General
 for Audit

November 7, 2008


USDA/OIG-A/27401-33-Hy                                                                      Page 6
Exhibit A –Financial Statements




                              USDA

             Food and Nutrition Services

                         Fiscal Year 2008

                   (PREPARED BY FNS)




USDA/OIG-A/27401-33-Hy                      Page 7
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                     MANAGEMENT DISCUSSION AND ANALYSIS




               MANAGEMENT DISCUSSION AND ANALYSIS

SECTION 1: MISSION, ORGANIZATIONAL STRUCTURE AND PROGRAMS

The Food and Nutrition Service (FNS) is an agency within the U.S. Department of Agriculture (USDA). FNS was
established August 8, 1969, by Secretary's Memorandum No. 1659 and Supplement 1 pursuant to the authority
contained in 5 U.S.C. 301 and Reorganization Plan No. 2 of 1953.

FNS is the Federal agency responsible for managing the domestic nutrition assistance programs. Its mission is to
increase food security and reduce hunger in partnership with cooperating organizations by providing children and
low-income people access to food, a healthful diet, and nutrition education in a manner that supports American
agriculture and inspires public confidence.

The FNS appropriation for administrative funds annually includes a very small percentage of funds for the
administration of the Center for Nutrition Policy and Promotion (CNPP). CNPP links scientific research to the
nutrition needs of consumers through science-based dietary guidance, nutrition policy coordination, and nutrition
education. CNPP develops integrated nutrition research, education, and promotion programs and provides science-
based dietary guidance. The agency was re-aligned during FY 2008.

FNS FY 2008 Organization Chart




                                                     Page 1
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                       MANAGEMENT DISCUSSION AND ANALYSIS




Descriptions of FNS Programs:
Beginning with the National School Lunch Program in 1946, the Nation has gradually built an array of nutrition
assistance programs designed to help the most vulnerable populations meet their food needs. Together, the current
programs form a nationwide safety net supporting low-income families and individuals in their efforts to escape
food insecurity and hunger and achieve healthy, nutritious diets.

Federal nutrition assistance programs operate as partnerships between FNS and the State and local organizations that
interact directly with program participants. States voluntarily enter into agreements with the Federal government to
operate programs according to Federal standards in exchange for program funds that cover all benefit costs, as well
as a significant portion of administrative expenses.

Under these agreements, FNS is responsible for implementing statutory requirements that set national program
standards for eligibility and benefits, providing Federal funding to State and local partners, and monitoring and
evaluating to make sure that program structures and policies are properly implemented and effective in meeting
program missions. State and local organizations are responsible for delivering benefits efficiently, effectively, and in
a manner consistent with national requirements.

FNS nutrition assistance programs work both individually and in concert with one another to improve the Nation’s
nutrition and health by improving the diets of children and low-income households. Currently, the programs
administered by FNS touch the lives of one in five Americans over the course of a year.

    Food Stamp Program (FSP): Authorized by the Food Stamp Act of 1977, the FSP serves as the centerpiece and
    primary source of nutrition assistance for over 25 million low-income people. It enables participants, over 50
    percent of who are children, to improve their diets by increasing food purchasing power using benefits that are
    redeemed at retail grocery stores across the country. State agencies are responsible for the administration of the
    program according to national eligibility and benefit standards set by Federal law and regulations. Benefits are
    100 percent Federally-financed, while administrative costs are shared between the Federal and State
    governments.

    The FSP provides the basic nutrition assistance benefit for low-income people in the United States while the
    other FNS programs supplement the program with benefits targeted to special populations, dietary needs and
    delivery settings. (Puerto Rico, the Commonwealth of the Northern Mariana Islands, and American Samoa
    receive grant funds with which to provide food and nutrition assistance in lieu of the FSP.)

    Food Distribution Program on Indian Reservations (FDPIR): The Food Stamp Act of 1977 authorized the
    distribution of agricultural commodities to eligible needy persons residing on or near Indian reservations.
    FDPIR serves as an alternative to the FSP for Indian households on or near reservations. Indian Tribal
    Organizations (ITOs) that operate the program are responsible for certifying recipient eligibility, nutrition
    education, local warehousing and transportation of commodities, distribution of commodities to recipient
    households, and program integrity. The Federal government pays 100 percent of the cost of commodities
    distributed through the program, as well as cash payments for administrative expenses.


    Child Nutrition Programs (CNP): The National School Lunch (NSLP), School Breakfast (SBP), Special Milk
    (SMP), Child and Adult Care Food (CACFP), and Summer Food Service (SFSP) Programs provide
    reimbursement to State and local governments for nutritious meals and snacks served to approximately 30
    million children in schools, child care institutions, adult day care centers, and after-school care programs. FNS
    provides cash and commodities on a per-meal basis to offset the cost of food service at the local level as well as
    offset a significant portion of State and local administrative expense and provides training, technical assistance,
    and nutrition education. Payments are substantially higher for meals served free or at a reduced price to
    children from low-income families.



                                                        Page 2
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                      MANAGEMENT DISCUSSION AND ANALYSIS




    Special Supplemental Nutrition Program for Women, Infants and Children (WIC): WIC addresses the
    supplemental nutritional needs of at-risk, low-income pregnant, breastfeeding and postpartum women, infants
    and children up to five years of age. It provides participants monthly supplemental food packages targeted to
    their dietary needs, nutrition education, and referrals to a range of health and social services – benefits that
    promote a healthy pregnancy for mothers and a healthy start for their children. Appropriated funds are provided
    to States for food packages and nutrition services and administration for the program; States operate the
    program pursuant to plans approved by FNS. WIC is augmented in some localities by the Farmers’ Market
    Nutrition Program, funded within the Commodity Assistance Program account, and authorized by the WIC
    Farmers’ Market Nutrition Act of 1992, which provides fresh produce to WIC participants.

    The Emergency Food Assistance Program (TEFAP): This program supports the emergency food organization
    network by distributing Federally-purchased commodities for use by emergency feeding organizations
    including soup kitchens, food recovery organizations, and food banks. TEFAP also provides administrative
    funds to defray costs associated with processing, repackaging, storage, and distribution of Federal and privately
    donated commodities. The allocation of both Federal commodities and administrative grants to States is based
    on a formula that considers the States’ unemployment levels and the number of persons with income below the
    poverty level.

    The Commodity Supplemental Food Program (CSFP): This program provides foods purchased by USDA to
    low-income infants and children up to age six, low-income pregnant, postpartum and breastfeeding women, and
    to low-income senior citizens who are residing in approved project areas. In recent years, there has been a shift
    towards low-income elderly in this program; in FY 2005, elderly participation comprised approximately 90
    percent of total participation. Foods are distributed through State agencies to supplement food acquired by
    recipients from other sources. The CSFP is operated as a Federal/State partnership under agreements between
    FNS and State health care, agricultural or education agencies. Currently, 32 States, the District of Columbia,
    and two Indian reservations operate CSFP.

    Senior Farmers’ Market Nutrition Program (SFMNP): This program provides coupons to low-income seniors
    that can be exchanged for fresh, nutritious, unprepared, locally grown fruits, vegetables and herbs at farmers’
    markets, roadside stands, and community-supported agriculture programs.

    Pacific Island and Disaster Assistance: Pacific Island Assistance includes assistance to the nuclear-affected
    zones of the Republic of the Marshall Islands in the form of commodities and administrative funds and is
    authorized under the Compact of Free Association Amendments Act of 2003, (P.L. 108-188). Disaster Relief
    funds are provided for use in non-Presidentially declared disasters.

FNS Staff:
FNS staff is funded primarily out of the Nutrition Programs Administration account, which represents approximately
one quarter of one percent of the total FNS budget. The agency employment level represents less than two percent
of the total employment within USDA and is similarly small in proportion to the total State-level staff needed to
operate the programs. The agency employs people from a variety of disciplines, including policy and management
analysts, nutritionists, computer and communication experts, accountants, investigators, and program evaluators.

In FY 2008, FNS had almost 1300 employees. Approximately 500 were located at the Washington headquarters.
The rest were located in the seven regional offices, 67 field offices, four food stamp compliance offices, or the
computer support center.




                                                      Page 3
                    FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                              MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 2. PERFORMANCE GOALS, OBJECTIVES and
RESULTS
The FNS agency goal and objectives are fully integrated into USDA’s Strategic Goal 5 and three related Department
Strategic objectives. Each Department Strategic Objective has a key outcome and indicator, as discussed below.

USDA Strategic          USDA Strategic              Programs that
                                                                                Key Outcomes                Key Indicators
    Goal                  Objective                  Contribute1

                      USDA Strategic
                      Objective 5.1:                                        Key Outcome 1:
                                               FSP, CN, WIC, CAP,                                        Program Participation
                                                                            Reduce hunger and
                                               FDPIR, TEFAP                                              Rates
                      Ensure Access to                                      improve nutrition.
                      Nutritious Food

                      USDA Strategic           FSP, CN, WIC                 Key Outcome 2:
USDA Goal 5:
                      Objective 5.2:                                        Promote more healthful
                                                                                                         Nutrition Guidance
                      Promote Healthier                                     eating and physical
Improve the                                                                                              Distribution Volume
                      Eating Habits and                                     activity across the
Nation’s
                      Lifestyles               CNPP2                        Nation.
Nutrition and
Health
                      USDA Strategic
                      Objective 5.3:
                                                                            Key Outcome 3:
                                               FSP, CN, WIC
                                                                            Maintain a high level of     Food Stamp Payment
                      Improve Nutrition
                                                                            integrity in the nutrition   Accuracy Rate
                      Assistance Program
                                                                            assistance programs.
                      Management and
                      Customer Service




Nutrition is the link between agriculture and the Nation’s health, and the Department made strong progress in
advancing our nutrition and health goal in 2008. USDA’s leadership of the Federal nutrition assistance programs
made a healthier diet available for millions of children and low-income families. And the cutting-edge nutrition
promotion efforts of the Center for Nutrition Policy and Promotion harnessed interactive technologies to motivate all
Americans to make positive dietary behavioral changes consistent with the Dietary Guidelines for Americans and
the President’s HealthierUS initiative. Key 2008 accomplishments include:

     Promoting access to the Food Stamp Program (FSP). FSP is the Nation’s largest nutrition assistance
      program, serving over 28 million people in an average month in FY 2008. And the latest information on the
      rate of participation among eligible people showed that in 2006, 67 percent of all who were eligible for the Food
      Stamp Program (FSP) participated as compared with 54 percent in 2001.




1
    FSP = Food Stamp Program, CN=Child Nutrition (includes the National School Lunch Program, the School Breakfast Program, and the
    Special Milk Program), WIC = Special Supplemental Nutrition Program for Women, Infants & Children, CAP = Commodity
    Assistance Programs, FDPIR = Food Distribution Program on Indian Reservations, TEFAP = The Emergency
    Food Assistance Program
2
    CNPP = Center for Nutrition Policy & Promotion (Partner agency to FNS within USDA)


                                                                Page 4
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                      MANAGEMENT DISCUSSION AND ANALYSIS




   Promoting the MyPyramid Food Guidance System. MyPyramid offers the American public an individualized
    approach to nutritional well-being and active living. MyPyramid.gov’s web-based educational tools help
    Americans assess and personalize their diet and physical activity plans. The newest tool was the MyPyramid
    Menu Planner, designed to help individuals and family nutrition ―gatekeepers‖ plan more healthful menus and
    determine daily, weekly, and monthly consistency with the recommendations of the Dietary Guidelines for
    Americans and the MyPyramid Food Guidance System. Consumers continue to respond enthusiastically to this
    educational approach; in 2008, MyPyramid.gov and other nutrition interactive web-based tools were accessed
    or used over 5 billion times.

   Continuing to ensure that Food Stamp benefits are accurately issued. The Food Stamp Program payment
    accuracy rate for FY 2007, announced in 2008, was 94.4 percent, a new record high that reflects effective
    partnerships with State administering agencies, and extensive use of policy options to streamline program
    adminstration while improving access for working families.

In FY 2008, USDA continued to improve the quality of Americans’ diets through research-based nutrition
enhancements to the Nation’s food supply, and better knowledge and education to promote healthier food choices.
In FY 2008, USDA pursued national policies and programs to ensure that everyone has access to a healthy diet
regardless of income, and that the information is available to support and encourage good nutrition choices.

USDA’s success in promoting public health through good nutrition and the effectiveness of its nutrition assistance
education programs relies heavily on research. The research provides critical knowledge of what we need to eat to
stay healthy and how that knowledge can be conveyed to the public in a manner that leads to true changes in our
diets. Research also supports development of new healthy and tasty food products providing another avenue for
helping consumers eat well.




USDA’s commitment to the nutrition assistance programs—the core of the Nation’s effort to improve food security
and reduce and prevent hunger—is guided by a straightforward principle: to ensure that all Americans who are
eligible and wish to participate can receive program services easily, and with dignity and respect. The strong
performance of the programs in 2008 reflects their fundamental strengths, and the Department’s efforts to promote
access and improve service to our clients in cooperation with our State partners.



Studies and analyses show that there continue to be large numbers of eligible people who do not participate in
Federal nutrition assistance programs. Many may not be aware that they are eligible. Therefore, efforts to improve
access to and promote awareness of these programs, and seeking improvements in policy and operations that make it
easier to apply, are ongoing challenges.

The quality of program delivery by third parties—hundreds of thousands of State and local Government workers and
their cooperators—is critical to Department efforts to reduce hunger and improve nutrition. Our ongoing efforts in
partnership with these entities to improve program operations with new technologies and business processes, must
always focus on customer service and ease of access to benefits, along with efficiency, as central components of
program effectiveness.




                                                      Page 5
                       FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                               MANAGEMENT DISCUSSION AND ANALYSIS




                                              Reduce Hunger and Improve Nutrition


In FY 2008, the Department and its program delivery partners sustained effective access to the programs, with
greater-than-targeted participation in the food stamps and WIC, expected levels of average monthly participation in
the School Breakfast Program, and slightly lower-than-targeted (but well within expected performance) average
participation in the National School Lunch Program.

Analysis of Results
As program participation is voluntary, participation projections are estimates based on economic and other factors
that impact the likely behavior of eligible populations. An analysis of the most recent information available follows:

Exhibit 1:        Improve Access to Nutritious Food

                                                                                           Fiscal Year 2008
                 Annual Performance Goals and Indicators                            Target       Actual          Result
 5.1.1       Participation levels for the major Federal nutrition assistance
             programs (millions per month):
                  Food Stamp Program                                           27.8 million      28.1 million
                  National School Lunch Program                                31.6 million      31.5 million
                                                                                                                  Met
                  School Breakfast Program                                     10.8 million      10.8 million
                Special Supplemental Nutrition Program for Women, Infants
                                                                                    8.5 million    8.7 million
             and Children (WIC)



Food Stamp Program—The program served approximately 28 million participants monthly in FY 2008, an
increase of about 7.7% from the FY 2007 average monthly level. USDA executed a range of efforts to support and
encourage food stamp participation in FY 2008, including:

     Securing key improvements to food stamps in the 2008 Farm Bill, including Administration proposals to
     exclude the value of retirement and educational savings accounts, military combat pay, and all dependent care
     expenses from Food Stamp eligibility determination, increasing access for some low-income families.
     Efforts with States to develop outreach strategies, with over 60% of States having formal outreach plans or
     other documented outreach activity in place.
     Support for innovative State practices to promote access by simplifying the application process. Latest
     available data shows that 21 States have internet-based application filing (15 Statewide). 25 States allow
     recertification interviews to be done by telephone, and 18 States have call centers (7 Statewide). Additionally, 9
     States have waivers to allow initial certification interviews to be done by telephone.
     A new publication, ―Eat Right When Money’s Tight,‖ designed to help low-income families with tips on thrifty
     shopping, meal preparation, and the availability of food stamps and other nutrition assistance programs as a
     critical tool for low-income families facing rising food costs.

USDA also conducts studies to measure the number of people eligible for the program, in order to determine the rate
at which eligible people are participating. The latest study shows that in 2006, 67 percent of all who were eligible
for the Food Stamp Program (FSP) participated, a substantial increase from the prior year. Also in 2006,
participants received 83 percent of all food stamps available if every eligible person participated – an indicator that
the program is effectively reaching those most in need.




                                                                  Page 6
                      FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                             MANAGEMENT DISCUSSION AND ANALYSIS




National School Lunch Program—NSLP participation levels reached 31.5 million in FY 2008, up slightly from
FY 2007 and continuing the trend of increases in recent years. NSLP provides nutritious meals to millions of
children at school; over 100,000 schools and residential child care institutions (RCCIs) operated the program in FY
2008.

School Breakfast Program—SBP participation levels reached 10.8 million in FY 2008, up over 6 percent from a year
ago and continuing a trend of increases over the last several years. SBP makes healthy, nutritious meals available to
millions of children at the start of each school day. More than 85,000 institutions operated the program in FY 2008.
USDA continued to support and encourage SBP participation in FY 2008 by:

      Promoting SBP through such activities as School Breakfast Week, highlighting the availability of the program
       through events, posters and student activities that show the importance of a good breakfast—either at home or
       served through the program—in being ready for school;
      Working with various organizations and partners to help develop strategies for program expansion; and
      Developing School Breakfast outreach materials for schools and parents.

In addition to the increase in the number of participating children, trend data indicate that the proportion of all
children enrolled in schools who participate in SBP has risen slowly but steadily in recent years. This growth
reflects USDA’s continuing efforts to encourage schools to operate the program.

Women, Infants and Children (WIC)—In FY 2008, approximately 8.7 million participants received WIC
benefits. USDA addresses the health and nutritional needs of, at risk, low-income pregnant, breastfeeding and
postpartum women, infants and children up to 5 years of age with supplemental food packages, nutrition education
and health and social services referrals. USDA continued to support and encourage WIC Program participation, and
improve benefits and services, in FY 2008 by:

       Maintaining the Administration’s commitment to ensure adequate funding to support participation by all those
       eligible people who seek services.
       Completing an historic update to the standards for WIC food benefits – the first major changes to the WIC food
       packages since 1980. These new packages will be aligned with the 2005 Dietary Guidelines for Americans and
       infant feeding practice guidelines of the American Academy of Pediatrics – important steps in keeping the
       program optimally aligned to meet today’s nutrition needs.

Exhibit 2:       Trends in Improving Access to Nutritious Food (2008 from 2010 Dept. Estimates; 2007 from 10/22/08 Key Data)

                                                                                         Fiscal Year
                             Trends                               2004        2005         2006      2007              2008
    5.1.1    Improve Access to Nutritious Food:
                Food Stamp Program Avg. Monthly
                                                                   23.9        25.7         26.7          26.3          28.1
             Participation (mil)
                National School Lunch Program Avg. Daily          29.0        29.6         30.1          30.6
                                                                                                                        31.5
             Participation (mil)
                School Breakfast Program Avg. Daily               8.9          9.3          9.8          10.1
                                                                                                                        10.8
             Participation (mil)
                 WIC Program Monthly Participation (mil)          7.9          8.0          8.1          8.2
                                                                                                                        8.7




                                                              Page 7
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                       MANAGEMENT DISCUSSION AND ANALYSIS




Healthy eating and physical activity practices are vital to reducing the risk of death or disability from a wide range
of chronic diet-related illnesses. USDA uses Federal nutrition policy and nutrition education, both for the general
public and those served by the nutrition assistance programs, to provide scientifically based information about
healthful diets and lifestyles.

The Dietary Guidelines for Americans, developed jointly by USDA’s Center for Nutrition Policy and Promotion and
the Department of Health and Human Services, provide advice about food choices that promote health and prevent
disease. And CNPP’s MyPyramid food guidance system provides the educational tools to help Americans take the
necessary ―Steps to a Healthier You.‖ A range of cutting-edge information tools, many available on the web, offer a
personalized eating plan with the foods and amounts that are right for a given individual.

                            KEY OUTCOME
                                Promote More Healthful Eating and Physical
                                        Activity across the Nation

The Department will continue promoting diets and behaviors as a vital public-health issue. The Dietary Guidelines
for Americans is the cornerstone of Federal nutrition guidance. USDA uses the 2005 Dietary Guidelines and
MyPyramid, the Guidelines’ educational tool, to continue its leadership role of providing advice people in the U.S.
can follow to improve overall health through proper nutrition. USDA uses partnerships and ―information
multipliers‖ – such as shopkeepers who post public service messages in their shops, or school teachers who teach
their students about nutrition – to maximize the reach and impact of its interventions, both within Federal nutrition-
assistance programs and with the general public.




While USDA’s goal to address and prevent obesity begins with understanding what constitutes a healthy diet and the
appropriate balance of exercise, success requires individuals to change their diets by modifying their eating
behavior. Crafting more effective messages and nutrition education programs to help people make better food
choices requires understanding their current choices and the relationships between these choices and their attitudes,
knowledge and awareness of diet/health links. The data that can address this information gap, however, are limited.

The ability of existing nutrition guidance and promotional materials to achieve behavior change remains challenging
because of the limited resources available for nutrition promotion relative to other messages, products and practices
in the food marketplace. Additionally, physical activity and other lifestyle issues significantly impact body weight
and health.

USDA tracks its annual performance in promoting healthful eating and physical activity by monitoring its annual
distribution of nutrition education materials. Over the longer term, USDA assesses the effect of these efforts with the
CNPP-developed Healthy Eating Index (HEI), a measure of diet quality that assesses conformance to Federal dietary
guidance and is based on nutrition surveillance data.

Analysis of Results

To meet the needs of the general population, USDA continued its leadership role in the promotion of nutrition
guidance through educational tools designed to motivate people to live healthier:




                                                        Page 8
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                      MANAGEMENT DISCUSSION AND ANALYSIS




    Usage level of nutrition guidance tools was substantial, with more than 3 billion pieces of nutrition guidance
    materials distributed via the Web and print materials. Additionally, registrations continue to increase for the
    MyPyramid Tracker, an on-line diet and physical activity assessment tool. The tracker has averaged over 2
    million active registrations since 2005.

    USDA launched a ground-breaking collaborative effort to magnify the communication of dietary and physical
    activity guidance messages. The new Partnering with MyPyramid: Corporate Challenge showcases the role of
    various industries as partners to government in encouraging healthier eating and physical activity behaviors
    among families. The Challenge is designed to empower nutrition gatekeepers by providing easy to apply
    guidance for modeling a healthy lifestyle and by providing information to help them make healthy food choices
    for themselves and their families where they prepare foods, work, play, and purchase foods.

    The MyPyramid Menu Planner, the newest educational tool at www.MyPyramid.gov, exemplifies USDA’s
    commitment to personalizing nutrition guidance. The menu planner shows whether the diet is balanced and
    consistent with the Dietary Guidelines for Americans, and advises on ways for individuals to learn and adjust
    their diets to meet the dietary recommendations. It is designed to track the diet, and helps the user plan
    upcoming meals. The MyPyramid Menu Planner is not only useful to those interested in healthful and nutritious
    diets, but also to high school and middle school classes, and dietitians, health professionals, and nutrition
    educators for use in counseling and educational programming.


In addition, USDA advanced a number of important initiatives to promote healthy diets in the nutrition assistance
programs. Key accomplishments include:

    Continued use of nutrition education in the Food Stamp Program to promote healthy food choices and
    physically active lifestyles, including the popular Loving Your Family, Feeding Their Future, a comprehensive
    nutrition education intervention in English and Spanish to reach low-income moms with limited literacy skills,
    to motivate them to improve their families’ eating and physical activity behaviors

    Expansion and improvement of the HealthierUS Challenge, USDA’s recognition program to encourage schools
    to take a leadership role in helping students make healthy eating and active lifestyle choices by voluntarily
    meeting guidelines established that promote a healthy school nutrition environment. FNS recently announced
    new HealthierUS criteria that have been updated and revised to reflect the 2005 Dietary Guidelines. The
    Department developed a new Gold Award of Distinction to recognize schools that exceed the regular
    requirements. Over 90 schools have recognized through the Challenge this year.

    Launch of an effort to engage an expert panel convened by the National Academies’ Institute of Medicine to
    recommend updates to meal pattern requirements for the school meals programs based on the 2005 Dietary
    Guidelines for Americans and related nutrition requirements.


    Award of a grant to the National Academies’ Institute of Medicine to support the review of the dietary reference
    intakes for vitamin D and calcium, two of the nutrients that were identified by the 2005 Dietary Guidelines
    Advisory Committee as concern for the specific population groups.




                                                       Page 9
                    FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                              MANAGEMENT DISCUSSION AND ANALYSIS




Exhibit 3:     Promoting Healthier Eating Habits and Lifestyles
                                                                                       Fiscal Year 2008
        Annual Performance Goals and Indicators                                 Target          Actual                      Result
       5.2.1    Application and usage level of nutrition guidance
                                                                               2.5 billion                 3.2 billion      Exceeded
                tools (pieces of nutrition guidance distributed)


Exhibit 4:     Trends to Promote Healthier Eating Habits and Lifestyles
                                                                                         Fiscal Year
                             Trends                               2004      2005           2006      2007                    2008
     5.2.1     Application and usage level of nutrition
               guidance tools (billions of pieces of nutrition    N/A      1.0 billion       2.0 billion      2.6 billion   3.2 billion
               guidance distributed)




USDA is committed to ensuring that nutrition-assistance programs serve those in need at the lowest possible costs
and offer a high level of customer service. Managing Federal funds for nutrition assistance effectively, including
prevention of program error and fraud, is a key component of the President’s Management Agenda. The Department
focused on maintaining strong performance in the food stamp payment-accuracy rate as its key performance goal in
this area.


                                             Maintain a High Level of Integrity in the
                                                 Nutrition Assistance Programs



Some improper payment risks are inherent to the legislatively mandated program structure. This structure is
intended and designed to be easily accessible to people in special circumstances and settings. USDA must shape its
management approach in light of the need to make services convenient and accessible to participants. State and local
Governments also bear direct responsibility for delivering the programs. Thus, the Department must work with these
groups to address improper payment problems through monitoring and technical assistance. This approach requires
adequate numbers of trained staff supported by a modernized information technology infrastructure to ensure full
compliance with national program standards.

Despite this strategy, two significant challenges will impact future success. Congressional action has changed the
quality control process, lowering the risk of penalties for poor State agency performance. However, State agencies
have, for the most part, risen to the challenge and continue to achieve a high level of payment accuracy.
Additionally, State budgets have been and will continue to be extremely tight. This factor could hurt State
performance in payment-accuracy. USDA will continue to provide technical assistance and support to maintain
payment accuracy in the context of this changing program environment.




                                                                 Page 10
                  FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                        MANAGEMENT DISCUSSION AND ANALYSIS




Analysis of Results
The FY 2008 Food Stamp Payment Accuracy Rate will become available in June 2009. It will be reported in the
FY 2009 Performance and Accountability Report.

While 2008 data are not yet available, food stamp payment accuracy reached 94.4 percent in 2007, a record-high
level reflecting excellent performance by State agencies in administering the program. This combined rate reflects
4.58 percent in overpayments, and 1.06 percent in underpayments, for a total of 5.64 in erroneous payments.

Twenty-eight States had a payment accuracy rate greater than 94 percent, including 12 States with rates greater than
96 percent.

In June, FNS awarded $30 million in high performance bonuses to the 7 States with the best payment accuracy rates
and the 3 States with the most improved rates.


USDA’s close working relationship with its State partners during the last several years, along with program changes
to simplify rules and reduce the potential for error, has resulted in consistent increases in food stamp payment
accuracy. Such USDA efforts as an enhanced Partner Web (an Intranet for State Food Stamp agencies) and the
National Payment Accuracy Work Group (consisting of representatives from USDA headquarters and regional
offices) contributed significantly to this success by making timely and useful payment accuracy-related information,
tools, and best practices available across the country. FNS will work with States on further streamlining such as the
Farm Bill option to extend simplified reporting to elderly and disabled households.

Additionally, the Department continued to use an early detection system to target States that may be experiencing a
higher incidence of errors based on preliminary quality control (QC) data. Actions then are taken by regional offices
to address these situations in the individual States.

Exhibit 5:    Increase Efficiency in Food Management
                                                                                   Fiscal Year 2007
             Annual Performance Goals and Indicators                      Target         Actual         Result
    5.3.1    Improve Food Stamp payment accuracy rate

                Increase Food Stamp Payment Accuracy Rate                94.3%           94.4%        Exceeded


Exhibit 6:    Trends in Increased Efficiency in Food Management
                                                                             Fiscal Year
                        Trends                          2004      2005        2006       2007            2008
   5.3.1     Increase Food Stamp Payment Accuracy
                                                        94.1%     94.1%       94.0%        94.4%                N/A
             Rate.




                                                        Page 11
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                      MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 3. ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL
COMPLIANCE
The information in this section is consistent with the findings of the USDA OIG’s FY 2008 financial statements
audit report.

Federal Managers’ Financial Integrity Act (FMFIA) Assurance
Management is responsible for developing and maintaining internal controls to ensure the effectiveness of
operations, reliability of reporting, compliance with applicable laws and regulations and safeguarding of assets.
Internal control encompasses accounting and administrative controls. Such controls include program, operational
and administrative areas as well as accounting and financial management.

FNS has conducted its assessment of internal control and financial systems pursuant to Sections 2 and 4 of FMFIA,
for the period ending September 30, 2008. Based on the results of this evaluation, FNS can provide reasonable
assurance that internal controls are operating effectively. For FY 2007, FNS had no existing material weaknesses or
significant deficiencies on which to report. No new material weaknesses or significant deficiencies were identified
for FY 2008.

Federal Financial Management Improvement Act (FFMIA)
Assurance
FNS has evaluated its financial management systems under FFMIA for the period ended September 30, 2008.
Based on the result of our evaluation, the agency is in substantial compliance with the FFMIA for the following
sections:

         1.       Federal Financial Management System Requirements,
         2.       Applicable Federal Accounting Standards,
         3.       Standard General Ledger at the Transaction Level, and
         4.       Information Security, Policies, Procedures, and Practices

FNS has no areas of substantial non-compliance.

Assurance for Internal Control over Financial Reporting
FNS conducted its assessment of the effectiveness of internal control over financial reporting as of June 30, 2008, in
accordance with USDA’s Implementation Guide and as required by the Office of Management and Budget Circular
A-123, Appendix A.

This assessment included an evaluation of entity level controls, risk assessments, process descriptions and
flowcharts, documentation of key controls, an assessment of the design of key controls, tests of effectiveness of
properly designed controls, summary of deficiencies and the development of corrective action plans for control
deficiencies.


Management recognizes its responsibility for monitoring and correcting all control deficiencies. Based on the results
of this assessment, FNS can provide reasonable assurance that internal controls over financial reporting are
operating effectively. No new material weaknesses or significant deficiencies were identified.


                                                      Page 12
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                        MANAGEMENT DISCUSSION AND ANALYSIS




While FNS can currently provide reasonable assurance relating to internal controls, financial reporting and financial
systems for FY 2008, we have reached a critical point regarding necessary administrative resources. For several
years we have reported that any further reductions in FNS resources, or increases in responsibilities without
compensating administrative resource increases may compromise our ability to adequately execute internal controls
already in place or to develop additional controls that may be needed. We have now reached the point where senior
managers must prioritize critical Agency functions and allocate limited resources accordingly.

Over the last two decades, FNS’ staff has declined by approximately 50% while the nutrition assistance programs
and government-wide initiatives affecting program management have grown in number, size, and complexity.
Administrative funding for FNS now accounts for only about ¼ of 1% of the total investment in nutrition
assistance. The Agency has responded to this challenge by seeking greater efficiencies through careful evaluation
and improvement of business processes, aggressive application of information technology solutions and the
development of a corporate work planning and priority setting process. These incremental changes have allowed
FNS to successfully respond to the growth in scope and complexity of the nutrition safety net and increasing public
attention to critical issues of program integrity with ever dwindling staff levels. Maintaining the Agency’s success
in the light of likely future administrative resource reductions, however, will require more fundamental,
comprehensive change.

Toward this end, in 2007, the Agency initiated a multi-year effort on ―Building a New FNS,‖ which seeks to
redesign the Agency’s workforce, organizational structure, processes and systems to meet the program and
organizational demands forced on the Agency by diminished resources. This effort focuses on organization and
process changes that will position the Agency to be able to function optimally with projected workforce reductions.
Initial structural and process changes have already begun to occur including the realignment of the Agency’s senior
management structure and a holistic redesign of the Food Stamp Program’s retailer authorization function. These
initiatives, as well as others which will emerge from the process over time, will fundamentally change the way in
which FNS conducts its business making it more nimble and tightly focused on core mission responsibilities.

FNS will continue to strive to ensure the operational and fiscal integrity of the Nation’s nutrition safety net as it has
throughout its forty year existence. However, it must be acknowledged that the Agency’s ability to continue to
absorb administrative resource reductions without impacting essential Agency functions is not unlimited.

OIG Audit Handling Process and Performance
USDA’s Office of the Inspector General (OIG) performs audits of FNS programs, systems and operations. The
results of this work are reports detailing, at a minimum, what was examined, findings that should be addressed and
recommendations for changes/improvements. Upon release of each final report, FNS submits to OIG a written
corrective action plan listing actions planned and dates by which these actions will occur. Management decision is
reached when OIG accepts FNS’ proposed corrective actions.

Upon reaching management decision, FNS’s Financial Management organization oversees follow-up activities to
assure that planned actions for each recommendation are implemented and completed. As this occurs, FNS notifies
the Department’s Office of the Chief Financial Officer (OCFO) and requests concurrence that all actions described
in the management decision agreement have occurred. Final action is achieved for each finding/recommendation
when all actions necessary to fulfill the management decision agreement have been performed.

Delays in reaching Final Action status most often occur for two categories of reasons:

    o    The amount of time needed to complete certain activities cannot be accurately estimated. Examples of these
         are:
              Specific legislation, policy or guidance needs to be developed;
              An investigation, negotiation, or administrative appeal action must be completed;



                                                        Page 13
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                     MANAGEMENT DISCUSSION AND ANALYSIS




             An automated system needs to be developed, implemented, or enhanced;
             The results of additional monitoring or program review activity must be completed;
             Disallowed costs must be collected;
             Legal advice or opinion from the Office of General Counsel is needed; or
             Certain external (state) or administrative actions must occur.

    o   Changes that could not be anticipated at the time management decision was reached:
           A change must be made to the management decision agreement. For example, the agreed upon
           management decision calls on the Agency to publish a regulation, but Congress initiates a moratorium
           on regulations.
           Additional information, explanation, advice or action from OIG is needed.

USDA agencies submit quarterly progress reports to OCFO for all audits that remain open more than one year past
the management decision date. These interim reports show incremental progress toward completion of planned
actions, changes in planned actions, actual or revised completion dates, and explanations for revised dates.




                                                    Page 14
                     FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                               MANAGEMENT DISCUSSION AND ANALYSIS




                 Audits Without Final Action More Than One Year Past the Management Decision Date

                            Date                                             Completion Date             Reason for Lack of Final
    Audit Number                                  Audit Title
                           Issued                                            for Actions (est)                   Action

                                         FSP Disqualified Recipient                                    Awaiting publication of
27601-3-CH                 3-22-96                                                9-30-09
                                         System                                                        regulations

                                                                                                       Awaiting collection of
27010-19-SF               11-18-99       Smart Start, Inc.                        12-31-08
                                                                                                       disallowed costs

                                                                                                       Pending collection
27010-3-KC                 3-22-00       CACFP-Wildwood                           10-31-11
                                                                                                       (repayment plan)

                                                                                                       Pending conclusion of
27601-6-KC                11-21-01       CACFP Wildwood – Phase II                12-31-09
                                                                                                       independent reviews

                                         NSLP Food Service                                             Awaiting publication of
27601-27-CH                4-30-02                                                9-30-08
                                         Management Companies                                          guidance

                                         Summer Food Service                                           Awaiting collection of
27099-31-SF                8-24-04                                                9-30-08
                                         Program - Nevada                                              disallowed costs

                                         Monitoring of CACFP                                           Awaiting collection of
27010-18-CH               10-28-05                                                 3-1-10
                                         Providers in Minnesota                                        disallowed costs

                                         CACFP Supper Meals                                            Awaiting publication of
27601-35-CH                7-14-06                                                5-31-09
                                         Served in Schools                                             regulations




The number of FNS audits without final action more than one year after management decision has declined by more
than 27 percent since FY 2005.3 In FY 2008, audit number 27099-22-CH, CACFP Opportunities Industrialization
Center of Greater Milwaukee, and audit number 27099-60-AT, Special Wages Incentive Program (SWIP) Audit –
Puerto Rico was closed. The Inspector General Act Amendments of 1988 requires the accompanying data for an
annual report on the status of audits.




3
    At the close of FY 2005, FNS had 11 such audits. At the close of FY 2008, FNS had 8 such audits.


                                                                  Page 15
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                     MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 4. IMPROPER PAYMENTS INFORMATION ACT
(IPIA)
The Improper Payments Information Act (IPIA) requires all agencies to 1) review all programs and activities, 2)
identify those that may be susceptible to significant improper payments, 3) estimate the annual amount of improper
payments for each program and activity and 4) report results.

Appendix C of OMB Circular A-123 defines significant improper payments as an annual amount that exceeds both
2.5% of program payments and $10,000,000. For programs/payments that fit this description, agencies must:

        Measure and reduce the improper payments,
        Identify the causes and take action to correct them,
        Implement necessary infrastructure to support activities,
        Develop proposals to obtain necessary infrastructure, and
        Hold managers accountable for results.

FNS assessed all food assistance programs as well as its Nutrition Programs Administration (NPA) funding, which
support FNS’ Federal administrative operations. Assessments were conducted in conjunction with USDA-
coordinated procedures. FNS, with OMB concurrence, has designated five programs as susceptible to significant
improper payments: the Food Stamp Program (FSP), the Special Supplemental Nutrition Program for Women,
Infants and Children (WIC), the Child and Adult Care Food Program (CACFP), the National School Lunch Program
(NSLP) and the School Breakfast Program (SBP). Improper payment measurement activities for each are described
briefly below.

        The Food Stamp Program sampling and erroneous payment measurement processes, the accepted
        hallmark of the IPIA environment, has been a legislative mandate for more than 30 years. This process
        compares the certification criteria upon which a household’s benefit issuance is determined with the
        household’s circumstances at the time of issuance. All case results are accumulated by state. The state
        results are validated and the validated results are combined into a national cumulative (overpayments plus
        underpayments) error rate. No other payment lifecycle steps are included. Improper payment measurement
        activities predate the passage of the IPIA and FSP was immediately recognized as compliant with the intent
        of the law when it was passed. State agencies are required to establish and collect Food Stamp claims in
        accordance with the requirements found in the Program regulations. Debts that become delinquent are
        subsequently submitted by the State agencies for collection through the Treasury Offset Program. In past
        years, FNS has used target measures to gauge the success of recipient claims activity. While claims
        collection by States continues and is ongoing, establishment of specific target amounts or rates would not
        be useful, since collections are to a large extent tied to the ability of each individual State to pursue and
        collect erroneous payments. To complicate matters, State error rates fluctuate over time with downturns (or
        upswings) in the economy and changes in numbers of the recipient population. Establishing targets for
        recovery amounts is not feasible because it does not anticipate such fluctuations, and does not take into
        account the variability of State collection systems.

        In the Special Supplemental Nutrition Program for Women, Infants and Children (WIC), work is
        underway to report improper payment error rates on two segments of the program: certification error and
        vendor error.

             o   FNS first reported a vendor improper payment error rate in FY 2006. Over and under payment
                 rates for FY 2005 were developed through a nationally representative study of a probability
                 sample of WIC vendors. Data from this ―bookend‖ study is then used in conjunction with


                                                     Page 16
             FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                  MANAGEMENT DISCUSSION AND ANALYSIS




             information on vendor investigations by State WIC Agencies to prepare a statistically estimated
             improper payment amount for each subsequent year. Until the next bookend study planned for
             2012, the 2005 rates will be aged and reported annually using data generated by State undercover
             investigators who attempt to make WIC purchases using valid WIC food instruments. The
             charges submitted by each sampled vendor are compared to the undercover purchase activity to
             estimate overcharging, and other sanctionable violations. Case results are accumulated by State
             and used to age the estimates.

         o   Certification rate: The contractor will interview WIC households and compare the certification
             criteria upon which a household’s benefit issuance was determined with the household’s
             circumstances at the time of issuance. This data will be accumulated nationally. Delays in the
             national representative study will result in data collection being delayed until FY 2009. A
             preliminary estimate of erroneous payments associated with certification actions will be available
             in August 2009, and the final estimate will be available in 2010.

Current statutory authority allows USDA to recover improper payments from state agencies when identified
through reviews, audits or other operational oversight activities. Current statutory authority does not support
collection of improper payments identified on the basis of a statistical sample or estimation procedure, as used
to develop the national estimates of improper payments reported here.

    The Child and Adult Care Food Program (CACFP) has three distinct parts: Child Care Centers, Adult
    Day Care facilities and Family Day Care Homes (FDCHs). Overall program funding is provided to state
    agencies which provide funds to sponsoring organizations to pay for claims for reimbursable meals served
    at provider sites. Sites can be as large as an institution or as small as a household. Each part of CACFP has
    its own reimbursement structure.

    Payments and claim information are transferred among FNS, State agencies, program sponsors and
    program sites; each such transaction represents a risk for improper payment. Because requirements vary
    significantly for each different type of program sponsor and site, a full and rigorous assessment of the rate
    of improper payments is extremely complex.

    FNS has identified the FDCH component of this program as potentially high risk, and measures error in
    this part of the program in lieu of the unfunded comprehensive measure. FDCHs participate in CACFP
    through public or private nonprofit sponsoring organizations. FDCH improper payments are most likely
    caused by sponsor error in determining a participating home’s reimbursement tier (tiering error) or by
    FDCH error in reporting the number of meals which are eligible for reimbursement (claiming error).


    Two activities are underway which provide information on improper payments in the FDCH component of
    CACFP. A third activity is being pilot tested.

         o   CCAP – In the Spring of 2004, FNS began the Child Care Assessment Project (CCAP). This
             project was designed to measure the effectiveness of efforts to improve the integrity of CACFP
             family day care homes and provide information from a broadly representative national sample of
             sponsors and providers. Data were collected by the Food and Nutrition Service (FNS), in
             cooperation with State agencies and sponsors administering the Child and Adult Care Food
             Program, during the period 2004-2007. The CCAP process was designed to measure whether the
             two interim management improvement rules issued by FNS in 2002 and 2004 had been properly
             implemented, and whether the rules had effectively addressed the serious program management
             and integrity problems that had been uncovered in the 1990s. In the three and one-half years
             during which assessments were conducted, FNS gathered the program records of 58 family day
             care home (FDCH) sponsors and over 3,000 of their providers. A database has been constructed
             and is being carefully examined and analyzed to assess the effectiveness of the regulations as well


                                                  Page 17
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                      MANAGEMENT DISCUSSION AND ANALYSIS




                 as to offer insights on the control points in the claiming and reimbursement process that most
                 frequently cause or contribute to improper payments. Results will be available by mid-2009.

             o   Sponsor error – FNS has developed an annual sponsor tiering error measure and tested it. CACFP
                 sponsors are responsible for determining whether family day care homes receive meal
                 reimbursement at the higher rate (Tier 1) or lower rate (Tier 2). In FY 2005, the first annual data
                 collection began to determine a nationally representative sponsor tiering determination error rate.
                 Results for FY2005, FY2006 and FY2007 have been reported. Preliminary FY 2008 estimates
                 will be reported in June 2009 with final estimates available in August 2009.

             o   Claiming error - In its 2006 measurement plan, FNS proposed to test the feasibility of estimating
                 the risk of claiming errors. FNS proposed to select a random sample of sponsoring organizations
                 and, from each, use a random selection of the sponsor’s monitoring visits of FDCHs. FNS would
                 compare the number of meals claimed with the number of children observed at the time of the
                 visit. If feasible to conduct, it is assumed that this comparison would provide an estimate of the
                 risk of overpayment.

                 FNS staff collected data in 11 family day sponsors around the country, gathering a random sample
                 of 268 FDCH sponsor monitoring visit records. For each, FNS gathered the FDCH’s meal claim
                 data for the month of the monitoring visit and the month before. The information is being
                 analyzed and results will be available in early 2009. FNS also contracted to develop and pilot test
                 additional alternatives to determine the feasibility of estimating the risk of claiming error by
                 methods such as direct observation of FDCHs or by contacting parents to determine if children
                 were really present at a FDCH when claimed.

        Improper payments identified during the course of a review, audit, or other operational oversight activities
        can be recovered either through direct billing or through an offset of future program payments earned.
        Current statutes only provide authority to recover improper payments identified through reviews, audits or
        other operational oversight activity. Program regulations allow States to waive claims against a single
        institution for improper payments of up to $600 in a single fiscal year. CACFP would need new statutory
        authority to pursue collection of improper payments identified on the basis of a statistical sample or
        estimation procedure.

        The National School Lunch Program and School Breakfast Program do not have a sampling and
        erroneous payment measurement process comparable to FSP. Instead, FNS must rely on nationally
        representative studies to produce estimates of erroneous payments. An erroneous payments rate for School
        Year 2005-2006 based on current study results was reported in the FY 2007 Performance and
        Accountability Report, Appendix B. Because of the scope and cost of this study, it is more prudent to
        repeat it on a multi-year cycle. Contingent upon available funding, FNS will produce an erroneous
        payment measurement through this type of study every five years. Also, as part of this same project, FNS
        developed a methodology that uses data available from other sources to estimate erroneous payments due to
        certification error on an annual basis. Current statutory authority allows USDA to recover improper
        payments from state agencies when identified through reviews, audits or other operational oversight
        activities. Current statutory authority does not support collection of improper payments identified on the
        basis of a statistical sample or estimation procedure, as used to develop the national estimates of improper
        payments reported here.

Additional information on FNS’ Improper Payments Information Act (IPIA) activities can be found in the USDA
Performance and Accountability Report.

The following tables summarize the results of measurement activities for FNS programs identified as subject to a
significant risk of improper payments. The first table shows improper payment rates for the last two years and the



                                                     Page 18
                     FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                           MANAGEMENT DISCUSSION AND ANALYSIS




    third table reflects future reduction targets. All results reported each year represent measures of outlays and
    program activity for the previous year.

                                       FNS Measures for IPIA Reporting


                                Improper Payment Sampling Results ($ in millions)
                                                           Results                        Results
                        Program                      Reported in FY 2007            Reported in FY 2008
                                                  Outlays    IP%         IP$      Outlays   IP%       IP$
 Food Stamp Program, FNS                                       29,942       5.99%        1,794       30,373     5.64%       1,713
 National School Lunch Program, FNS
   Total Program                                                8,602      16.30%        1,402        8,756     16.55%      1,449
   Certification Error                                          8,602       9.42%          810        8,756      9.67%        847
   Counting/Claiming Error                                      8,602       6.88%          592        8,756      6.88%        602
 School Breakfast Program, FNS
   Total Program                                                2,086      24.94%         520         2,150     25.02%       538
   Certification Error                                          2,086       9.15%         191         2,150      9.23%       198
   Counting/Claiming Error                                      2,086      15.79%         329         2,150     15.79%       339
 Women, Infants and Children, FNS
   Total Program                                                3,598         N/A         N/A         3,950       N/A        N/A
   Certification Error Component                                3,598         N/A         N/A         3,950       N/A        N/A
   Vendor Error Component                                       3,598       0.69%          25         3,950     0.87%         34
 Child and Adult Care Food Program, FNS
   Total Program                                                2,187         N/A         N/A         2,311       N/A        N/A
   FDC Homes – Tiering Decisions                                  738       1.69%          12           728     1.56%         11
   FDC Homes – Meal Claims                                        738         N/A         N/A           728       N/A        N/A


                 Detailed Breakout of Improper Payment Rates Reported in FY 2008 ($ in millions)
                                              Total                     Over-          Under-
                                                          IP%                                                             Other
                                            Payments                 payments         payments
 Food Stamp Program, FNS
                                                    30,373         5.64%               4.58%            1.06%              N/A
 National School Lunch Program, FNS                  8,756         16.55%             12.51%            4.04%              N/A
 School Breakfast Program, FNS                       2,150         25.02%             21.54%            3.50%              N/A
 Women, Infants and Children, FNS
   Vendor Error Component                            3,950         0.87%              0.35%             0.52%              N/A
 Child and Adult Care Food Program, FNS
   FDC Homes – Tiering                                 728         1.56%              1.54%             0.02%              N/A


                                Improper Payment Reduction Outlook ($ in millions)
                             FY 2009 Reporting           FY 2010 Reporting                             FY 2011 Reporting
      Program
                          Outlays    IP%       IP$  Outlays       IP%        IP$                    Outlays    IP%       IP$
Food Stamp Program,
FNS                           33,866      5.7%      1,930         35,189      5.6%        1,970        35,483     5.4%        1,916
National School Lunch
Program, FNS                   9,562    16.08%      1,538          9,715     15.63%       1,518         9,981    15.19%       1,516
School Breakfast
Program, FNS                   2,418      24.2%       590          2,503     23.42%           590       2,623    22.77%           590
Women, Infants and
Children, FNS                  4,547      0.82%        37          4,492     0.77%             35       4,594     0.72%           33



                                                             Page 19
                       FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                            MANAGEMENT DISCUSSION AND ANALYSIS




                                Improper Payment Reduction Outlook ($ in millions)
                             FY 2009 Reporting           FY 2010 Reporting                            FY 2011 Reporting
      Program
                          Outlays    IP%       IP$  Outlays       IP%        IP$                   Outlays    IP%       IP$
Child and Adult Care
Food Program, FNS                 757     1.51%          11           776     1.46%          11           796       1.41%   11



    Note: Please refer to the USDA 2008 Performance and Accountability Report for more detailed IPIA information.




                                                              Page 20
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                       MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 5. LIMITATIONS OF FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of operations of the
Food and Nutrition Services (FNS), an agency of the United States Department of Agriculture, pursuant to the
requirements of 31 U.S.C. 3515 (b). While the statements have been prepared from the books and records of FNS in
accordance with GAAP for Federal entities and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the same books and
records.

The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




                                                      Page 21
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                        MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 6. FINANCIAL STATEMENTS HIGHLIGHTS AND ANALYSIS

FNS’ FY 2008 financial statements reflect the nutrition assistance programs’ responsiveness to the Nations’
economic performance. By design, the level of activity within the nutrition assistance programs varies with the level
of need experienced by the populations we serve. A key determinant of this level of need is the condition of the
economy. In FY 2008 the economy performed weaker than was anticipated by the President’s FY 2008 budget
request. As a result, program participation and costs, as reflected in the financial statements are, on average, higher
than was anticipated.

In accordance with the US Standard General Ledger and the Treasury Financial Manual 1TFM 4700, FNS has
clarified its reporting of its grant accrual. For fiscal year 2008, FNS is classifying the accrual as Entitlement Benefits
and Non Entitlement Benefits. For the FY 2008 Financial Statements FNS will report Entitlement Benefits as
―Benefits Due and Payable‖ and report Non Entitlement Benefits as ―Other Liabilities‖ on the Balance Sheet and
related footnotes. In addition, FNS will not reflect these benefits as a portion of Accounts Payable on the Balance
Sheet. The classification of these accruals have no impact on the amounts reported for Total Liabilities.




                                                        Page 22
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                      MANAGEMENT DISCUSSION AND ANALYSIS




Balance Sheet

                                          2008                             2007
                               Dollars (mill) Percent          Dollars (mill)   Percent
Fund Balance with Treasury
                                      18,546        96.97%              19,044         97.17%
Accounts Receivable                      261         1.36%                 235          1.20%
General PP&E                              10         0.05%                  15          0.08%
Other                                    309         1.62%                 304          1.55%
 Total Assets                         19,126       100.00%              19,598        100.00%
Accounts Payable                            3         0.02%                 12           0.06%
Employee Benefits                           7         0.04%                  7           0.04%
Benefits Due and Payable                2,764        14.45%              2,854          14.56%
Other Liabilities                         818         4.28%                701           3.58%
 Total Liabilities                      3,592        18.78%              3,574          18.24%
Unexpended Appropriations
                                      15,311         80.05%             15,822          80.73%
Cumulative Results of
Operations                                223         1.17%                202           1.03%
 Total Net Position                    15,534        81.22%             16,024          81.76%
Total Liabilities & Net
Position                               19,126         100%              19,598           100%

The Balance Sheet composition (comparative composition of account balances to the totals) remained substantially
the same in FY 2008 as the prior year. The vast majority of FNS assets are held in Fund Balance with Treasury
(FBWT) - approximately 97% in both FY 2007 and FY 2008. This cash-like account largely represents the
aggregate amount of funds in the FNS accounts with the U.S. Treasury from which the agency is authorized to make
expenditures and pay liabilities. As financial statement Note 3 presents, a substantial portion of the fund balance is
unavailable as they are associated with either expired years or are contingency funds which were not made available.

“Other assets‖ remained at levels consistent with the prior year. Accounts receivable levels also remained consistent
with the prior year.

Benefits Due and Payable represents the largest liability of the agency, typically representing amounts that are
currently payable to grantees on Entitlement Benefits Programs. In 2007, grant accruals were reported as Accounts
Payable. In 2008, grant accruals are classified as either Entitlement Benefits or Non Entitlement Benefits. The
accrual for Entitlement Benefits is reported as ―Benefits Due and Payable‖ and the accrual for Non Entitlement
Benefits is reported as ―Other Liabilities.‖ This treatment is presented consistently for both 2007 and 2008.

The FY 2008 and 2007 Net Position of the agency is concentrated in Unexpended Appropriations.




                                                      Page 23
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                     MANAGEMENT DISCUSSION AND ANALYSIS




Statement of Net Cost


                                            2008                            2007
                                 Dollars (mill)  Percent        Dollars (mill)     Percent
Gross Cost                               60,552   100.05%                54,348      100.04%
Less: Earned Revenue                       (28)     -0.05%                 (24)        -0.04%
Net Cost of Operations                   60,524   100.00%                54,324      100.00%


The FNS mission addresses USDA Strategic Goal 5 ―To Improve the Nation’s Nutrition and Health‖. All program
costs are reported under that strategic goal. Gross Costs increased from $54,348 million in FY 2007 to $60,552
million in FY 2008, reflecting the overall impact of FNS programs’ actual participation levels and food costs.

As the chart above displays, Earned Revenue represents an extremely small offset to Gross Costs (less than one
percent), in both fiscal years. Earned revenue largely represents funds from the State Option Food Stamp Program
authorized under P.L. 105-18. States participating in this program (California, Wisconsin, and Nebraska) reimburse
FNS for benefits paid to legal immigrants who do not qualify for the Federal Food Stamp Program to whom the
States have ―opted‖ to provide benefits. Additional earned revenue is received from other Federal agencies for
reimbursement of expenses related to information technology services, commodities, and facility-related services.

The Net Cost of Operations increased from $54,324 million in FY 2007 to $60,524 million in FY 2008.




                                                    Page 24
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                     MANAGEMENT DISCUSSION AND ANALYSIS




Statement of Changes in Net Position

                                            2008                            2007
                                 Dollars (mill)  Percent        Dollars (mill)     Percent
Cumulative Results of
Operations
Beginning Balance                           202                              209
Appropriations Used                      53,513       88.39%              47,779       87.96%
Transfers In(Out) without
Reimbursement                             6,274       10.36%               5,746       10.58%
Other Budgetary Financing
Sources                                       0        0.00%                   0        0.00%
Imputed Financing                           758        1.25%                 792        1.46%
  Total Financing Sources                60,545      100.00%              54,317      100.00%
Less: Net Cost of Operations             60,524                           54,324
Ending Balance                              223                              202

Unexpended Appropriations
Beginning Balance                        15,822                          13,322
Appropriations Received                  53,839                          51,314
Adjustments                               (837)                         (1,035)
Appropriations Used                    (53,513)                        (47,779)
Total: Financing Sources                  (511)                           2,500
Ending Balance                           15,311                          15,822

Total Net Position                       15,534                           16,024




The Statement of Changes in Net Position explains the changes in the two components of Net Position of the
Balance Sheet from year to year, the Cumulative Results of Operations and the Unexpended Appropriations.

The FY 2008 appropriations used was $53,513 million, increased $5,734 million from FY 2007, based on actual
participation levels and food costs.

Cumulative Results of Operations increased $21million, from $202 million in FY 2007 to $223 million in FY 2008,
as the net cost of operations is less than the total financing sources. The proportional distribution of financing
sources among appropriations, transfers, and imputed financing remained relatively unchanged from FY 2007 to FY
2008. Transfers are largely made up a single large transfer made in the annual appropriations act from funds
available to the Secretary under Section 32 of the Act of 1935 for support of Child Nutrition programs.
Additionally, FNS received transfers from the Commodity Credit Corporation for the Senior Farmers Market
Program and the Nutrition Services Incentive Program (NSIP). Transfers represented approximately ten percent of
total financing sources in both FY 2007 and FY 2008.

Unexpended Appropriations decreased from $15,822 million in FY 2007 to $15,311 million in FY 2008 as more
appropriations were expended than were received (net of adjustments). These used financing sources are also
reflected in the lower balances in the Fund Balance with Treasury on the balance sheet.




                                                    Page 25
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                      MANAGEMENT DISCUSSION AND ANALYSIS




Statement of Budgetary Resources

                                            2008                             2007
                                 Dollars (mill)  Percent         Dollars (mill)      Percent
Budgetary Resources
Beginning Unobligated Balance
                                          14,892       19.89%              12,417        17.92%
Recoveries                                   637        0.85%                 761         1.10%
Appropriations                            53,835       71.89%              51,314        74.06%
Collections                                   85        0.11%                  86         0.12%
Change in unfilled customer
orders                                         0         0.00%                 (2)        0.00%
Transfers                                  6,277         8.38%              5,746         8.29%
Less: Permanently Not
Available                                  (838)       -1.12%             (1,034)        -1.49%
Total Budgetary Resources                 74,888      100.00%              69,288       100.00%

Status of Budgetary
Resources
Direct Obligations                        60,602       80.92%              54,372        78.47%
Reimbursable Obligations                      28        0.04%                  24         0.03%
Apportioned-Unobligated                      974        1.30%                 639         0.92%
Unobligated-Not Available                 13,284       17.74%              14,253        20.57%
Total: Status of Budgetary
Resources                                 74,888         100%              69,288          100%

Net Outlays                               59,773       79.82%              53,566        77.31%

The Statement of Budgetary Resources displays the source of all budgetary resources for the fiscal year as well as
the status of those resources as of the end of the fiscal year.

Appropriations were increased from $51,314 millions in FY 2007 to $53,835 millions in FY 2008. Total budgetary
resources were higher than prior year due to higher in both beginning unobligated balance and Appropriations
during the year. FNS had $74,888 million in total budgetary resources during FY 2008, largely from appropriations
received, but also from recoveries and available unobligated balances from prior periods.

At fiscal year end 2008, most ($60,602 million or 81%) of those resources were obligated, though $974 million or
1% remained unobligated and available, and another $13,284 million (18%) was unobligated and not available
(including apportioned unavailable Contingency Reserve funds for WIC and Food Stamps). In FY 2008, Net
Outlays represented 80% of Total Budgetary Resources, compared to 77% in FY 2007.

Unobligated balances brought forward were higher in FY 2008 than in FY 2007 (almost $15 billion compared to
$12 billion) because of the appropriations unused by the Food Stamp program at the end of FY 2007 that carried
over into FY 2008. These funds were largely expired, and thus unavailable to support new obligations in FY 2008.




                                                     Page 26
             FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                          FINANCIAL STATEMENTS




                                  Food and Nutrition Service

                          CONSOLIDATED BALANCE SHEETS
                        As of September 30, 2008 (CY) and 2007 (PY)
                                    (Dollars in Millions)

                                                                 FY 2008               FY 2007
                                                                  (CY)                  (PY)
Assets (Note 2):
      Intragovernmental:
                  Fund Balance with Treasury                   $     18,546        $       19,044
                  Other (Note 6)                                        309                   303
      Total Intragovernmental                                        18,855                19,347
      Accounts Receivable, net (Note 4)                                 261                   235
      General Plant, Property, and Equipment, net (Note 5)               10                    15
      Other (Note 6)                                                      -                     1
Total Assets                                                   $     19,126        $       19,598

Liabilities (Note 7):
       Intragovernmental:
                   Accounts Payable                              $          -      $              -
                   Other (Note 8)                                          37                    34
       Total Intragovernmental                                             37                    34

      Accounts Payable                                                    3                    12
      Federal Employee and Veterans Benefits                              7                     7
      Benefits Due and Payable                                        2,764                 2,854
      Other (Note 8)                                                    781                   667
Total Liabilities                                                     3,592                 3,574

Net Position:
      Unexpended Appropriations - Other Funds                        15,311                15,822
      Cumulative Results of Operations - Other Funds                    223                   202
Total Net Position                                             $     15,534        $       16,024
Total Liabilities and Net Position                             $     19,126        $       19,598

                The accompanying notes are an integral part of these statements.




                                                  Page 27
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                             FINANCIAL STATEMENTS


                                      Food and Nutrition Service

                          CONSOLIDATED STATEMENTS OF NET COST
                     For the Years Ended September 30, 2008 (CY) and 2007 (PY)
                                        (Dollars in Millions)


                                                        FY 2008                        FY 2007
                                                         (CY)                           (PY)
Program Costs:
   Strategic Goal:
        Improve the Nation's Nutrition and
        Health:
             Gross Costs (Note 10)                              $   60,552                   $ 54,348
             Less: Earned Revenue                                       28                         24
             Net Program Costs                                      60,524                     54,324

Net Cost of Operations                                          $   60,524                   $ 54,324



                    The accompanying notes are an integral part of these statements.




                                                    Page 28
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                            FINANCIAL STATEMENTS


                                       Food and Nutrition Service

                CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                        As of September 30, 2008 (CY) and 2007 (PY)
                                    (Dollars in Millions)

                                                    FY 2008                            FY 2007
                                                     (CY)                               (PY)
Cumulative Results of Operations:
Beginning Balance                                     $         202                      $           209
Beginning Balance, as adjusted                                  202                                  209

Budgetary Financing Sources:
  Appropriations Used                                         53,513                              47,779
  Transfers in/out without reimbursement                       6,274                               5,746
  Other                                                            -                                   -

Other Financing Sources (Non-
Exchange):
  Imputed Financing                                             758                                  792

Total Financing Sources                                       60,545                              54,317
Less: Net Cost of Operations                                  60,524                              54,324
Net Change                                                        21                                  (7)

Cumulative Results of Operations                                223                                  202

Unexpended Appropriations:
Beginning Balance                                             15,822                              13,322
Beginning Balance, as adjusted:                               15,822                              13,322

Budgetary Financing Sources:
   Appropriations Received                                   53,835                               51,314
   Appropriations Transferred in/out                              4
   Other Adjustments                                          (837)                               (1,035)
   Appropriations Used                                     (53,513)                              (47,779)
   Total Budgetary Financing Sources                          (511)                                 2,500
Total Unexpended Appropriations                              15,311                                15,822

Net Position                                          $       15,534                     $        16,024




                    The accompanying notes are an integral part of these statements.




                                                    Page 29
               FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                             FINANCIAL STATEMENTS




                                         Food and Nutrition Service

                      COMBINED STATEMENTS OF BUDGETARY RESOURCES
                       For the years ended September 30, 2008 (CY) and 2007 (PY)

                                            (Dollars in Millions)
                                                                    FY 2008           FY 2007
                                                                     (CY)              (PY)
Budgetary Resources:
Unobligated balance, brought forward, October 1:                         $ 14,892          $ 12,417
Recoveries of prior year unpaid obligations                                   637               761
Budget authority
  Appropriation                                                           53,835            51,314
  Spending authority from offsetting collections
       Earned
           Collected                                                            85                86
       Change in unfilled customer orders
           Advance received                                                    (0)               (1)
           Without advance from Federal sources                                (0)               (1)
  Subtotal                                                                 53,920            51,398
Nonexpenditure transfers, net, anticipated and actual                       6,277             5,746
Permanently not available                                                   (838)           (1,034)
Total Budgetary Resources                                                $ 74,888          $ 69,288

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                                 $ 60,602          $ 54,372
  Reimbursable                                                                 28                24
  Subtotal                                                                 60,630            54,396
Unobligated balance:
  Apportioned                                                                 974               639
  Subtotal                                                                    974               639
Unobligated balance not available                                          13,284            14,253
Total status of budgetary resources                                      $ 74,888          $ 69,288



Change in Obligated Balances:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                         $ 4,154           $ 4,166
  Total unpaid obligated balance, net                                       4,154             4,166
Obligations incurred net (+/-)                                             60,630            54,396
Gross outlays                                                            (59,859)          (53,647)
Recoveries of prior year unpaid obligations, actual                         (637)             (761)
Change in uncollected customer payments from Federal
sources (+/-)                                                                   (0)                 -
Obligated balance, net, end of period
  Unpaid obligations                                                          4,288             4,154


                                                    Page 30
               FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                            FINANCIAL STATEMENTS




  Uncollected customer payments from Federal sources                           -               -
  Total unpaid obligated balance, net, end of period                       4,288           4,154

Net Outlays:
  Gross outlays                                                           59,859           53,647
  Offsetting Collections                                                    (85)             (84)
  Distributed offsetting receipts                                             (2)               3
  Net Outlays                                                           $ 59,773         $ 53,566



                      The accompanying notes are an integral part of these statements.




                                                   Page 31
                  FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                         NOTES TO THE FINANCIAL STATEMENTS




                                  FOOD and NUTRITION SERVICE
                             NOTES TO THE FINANCIAL STATEMENTS
                              (Amounts shown are in millions except as noted)

 Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

   These financial statements have been prepared to report significant assets, liabilities, net cost of
   operations, changes in net position, and budgetary resources for the Food, Nutrition, and Consumer
   Services (FNS), as required by the Chief Financial Officers Act of 1990 as amended and OMB Circular A-
   136 dated June 3, 2008. They have been prepared from the books and records of FNS in accordance with
   the Generally Accepted Accounting Principles (GAAP) hierarchy of accounting principles for the Federal
   Government. GAAP for Federal financial reporting entities recognizes the Federal Accounting Standards
   Advisory Board (FASAB) as the standard setting body.

   In accordance with the US Standard General Ledger and the Treasury Financial Manual FNS has
   clarified its reporting of the GAD Accrual. FNS performed an analysis of the GAD Accrual and
   determined that the GAD Accrual consist of Entitlement Benefits and Non Entitlement Benefits. For the
   FY 2008 Financial Statements FNS will report Entitlement Benefits as ―Benefits Due and Payable‖ and
   report Non Entitlement Benefits as ―Other Liabilities‖ on the Balance Sheet and related footnotes. In
   addition, FNS will not reflect these benefits as a portion of Accounts Payable on the Balance Sheet. The
   classification of these benefits have no impact on the amounts reported for Total Liabilities.

B. Reporting Entity

   FNS, including the Center for Nutrition Policy and Promotion (CNPP), is under the jurisdiction of the
   Under Secretary for Food, Nutrition, and Consumer Services of the United States Department of
   Agriculture. FNS is headed by an administrator with overall policy formulated in the FNS headquarters in
   Alexandria, Virginia, and implemented through seven regional offices and 67 field offices, four food
   stamp compliance offices, one computer support center in Minneapolis, Minnesota. State departments of
   education have responsibility for food programs serving children in schools, child care centers, and
   summer recreation centers. State departments of health, welfare, and agriculture usually have
   responsibility for programs providing food stamp benefits or supplemental foods. For the FY 2008
   financial statement presentation, data classified as ―Other‖ is primarily comprised of Nutrition Program
   Administration (NPA) appropriations. A detailed description of the FNS programs is contained in the
   Management Discussion & Analysis (MD&A).

C. Basis of Accounting

   FNS records transactions on an accrual accounting and a budgetary basis. Under the accrual method,
   revenues are recognized when earned and expenses are recognized when a liability is incurred, without
   regard to receipt or payment of cash. Budgetary accounting facilitates compliance with legal constraints
   and controls over the use of Federal funds. These financial statements include all funds for which the FNS
   is responsible and were prepared in accordance with the GAAP hierarchy of accounting principles for the
   Federal Government.

D. Accounts Receivable

 The $261 recognized as non-federal accounts receivable includes debts owed FNS by individuals,
 businesses, States and local governments. The largest single component of this item consists of Food Stamp
 Program recipient claims. States establish claims against households to recover overissued Food Stamp


                                                       Page 32
                 FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                        NOTES TO THE FINANCIAL STATEMENTS




benefits after they confirm that such overissuance has taken place. They are then responsible for pursuing
collection of such claims. Collections, less an authorized State retention amount, are remitted to FNS. The
portion of total net realizable receivables consisting of Food Stamp recipient claims is the expected amount
of such remittance from States. The data generated by the State systems of gross account receivables has
been determined to be unreliable. Accordingly, FNS does not know what the State gross account receivable
is. FNS does not have any alternative method for acquiring reliable State receivable information.

FNS estimates net realizable Food Stamp accounts receivable through a regression-based statistical model. This
model estimates future collections by the States, which the States will remit to the Federal Government as of the end
of the accounting period (Federal fiscal year) based on the actual Food Stamp issuance and net claims collections for
prior years. The forecasting model draws its predictive power from the strong historical relationship between the
level of Food Stamp Program benefit issuance and the level of recipient claims collections by States. Applying the
model to actual data covering the periods FY 1984 through FY 2008, the model explains 96 percent of the variation
in claims collections. Historically, one-year-ahead collections projected by the model have proved to be accurate
within approximately 4 percent of actual net collections. Because the expected cash flow from collections of such
claims beyond one year is not expected to be material, FNS does not estimate collections after the initial year or
discount the estimate produced by the statistical model to its present value.

The Food Stamp Program has a system for monitoring and controlling program issuance called the Quality
Control (QC) system. It is an ongoing, comprehensive monitoring system required by the Food Stamp Act
to promote program integrity. A statistically valid sample of cases, consisting of active cases and ―negative
case actions‖ (terminations and denials of benefits), is chosen each month. State officials review the
sampled case records to measure and verify the accuracy of eligibility and benefits determinations, made by
State eligibility workers, against Program standards for the month under review. QC errors detected through
the review process include both underissuance and overissuance to eligible households and issuance to
households that are not eligible for benefits.

Because reliable data is not available addressing gross FNS accounts receivable, the FSP QC estimate of
FSP benefits overissued nationwide provide the best statistically valid estimate of invalid program
payments. Fiscal Year 2007 QC error rates were announced in June 2008. Using this methodology, FNS
estimates the value of benefit overissuance in Fiscal Year 2007 (the most recent year for which data are
available) at $1.392 billion. Statement of Federal Financial Accounting Standards (SFFAS) #1 permits
Federal entities to estimate its accounts receivable. The QC error rate overissuance estimate is considered
the best estimate available. However, since this is an estimate of all FSP overpayments, the actual State
gross account receivable amount would be lower but the variance can not be quantified. The amount of
overissued food stamps is included in the total program cost of the Food Stamp Program as reflected in the
Statement of Net Cost. A material amount of the estimate would be bad debt expense if the amount of this
estimate pertaining to accounts receivable could be quantified.

FNS does not receive information to calculate States’ QC liabilities for approximately 7 months after the end of the
fiscal year; therefore, current information is not available for the FY 2008 financial statements. For FY 2007, three
States were assessed liabilities for having excessive error rates for two consecutive years. The aggregate total of the
liability was $4.43. The three States signed payment agreements in lieu of immediately repaying in cash. The
agreements called for each State to invest 50 percent of its liability in program improvement activities. The
remaining 50 percent of the liability was placed at risk pending future improved performance.




                                                       Page 33
                  FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                         NOTES TO THE FINANCIAL STATEMENTS




           The QC over Issuance error rate data for the past 3 years follows:



             Fiscal Year                Rate Amount                   Total $ (Billions)

              2007                      4.58 %                        $ 1.392

              2006                      4.82 %                        $ 1.453

              2005                      4.53 %                        $ 1.294



E. Grants and Program Benefits

FNS records grant obligations based on the grant awards and food stamp program benefits based on the issuance of
benefits to recipients. Funds for FNS grant programs and food stamp electronic benefits transfer (EBT) benefits are
provided to States through a Letter of Credit process. This process allows the grantees or the EBT processor to draw
on established credit balances, as needed, to pay expenses associated with their grants or food stamp EBT transactions
at retailers. This allows FNS to hold funds until the grantees need the funds to pay program expenses or until the food
stamp EBT benefits are actually used. Expenses are recognized as grantees or EBT processors drawdown on the Letter
of Credit.

F. Annual, Sick, and Other Leave

 Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the balance in
 the accrued annual leave account is adjusted to reflect current pay rates. To the extent that current or prior
 year appropriations are not available to fund annual leave earned but not taken, funding will be obtained
 from future financing sources. Sick leave and other types of nonvested leave are expensed as taken.

G. Retirement Plan

 FNS employees participate in both the Civil Service Retirement System (CSRS) and the Federal Employees
 Retirement System (FERS). FNS makes matching contributions to the CSRS total plan equal to 8.5 percent
 of pay, while contributions to the FERS total plan are 10.7 percent of pay. For most employees hired since
 December 31, 1983, FNS also contributes the employer's matching share for Social Security. FERS went
 into effect pursuant to Public Law 99-335 on January 1, 1987. Most employees hired after December 31,
 1983, are automatically covered by FERS and Social Security. A primary feature of FERS is that it offers a
 savings plan to which FNS automatically contributes 1 percent of pay and matches any employee
 contribution up to an additional 4 percent of pay. FNS makes these and other contributions to employee
 retirement plans as shown in the following table:




                                                       Page 34
                  FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                        NOTES TO THE FINANCIAL STATEMENTS




                            FNS Retirement Contributions (In Millions)
                                                                                  Amount
  Type of Contribution                                                          2008           2007

  CSRS/Transitional retirement contributions - Civil Service                    $0.3          $0.3
  FERS regular contributions                                                    $7.3          $7.0
  Thrift Savings Plan contributions                                             $2.8          $2.7
  TOTAL                                                                         $10.4        $10.0




 These contributions are reported as expenses in the Statement of Net Cost. FNS does not report CSRS and
 FERS assets, accumulated plan benefits, or unfunded liabilities, if any, applicable to its employees.
 Reporting such amounts is the responsibility of the Office of Personnel Management's Federal Retirement
 System.

 Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal Government,
 requires Federal entities to recognize an expense for pensions and other retirement benefits at the time the
 employee’s services are rendered. The purpose of recognizing this expense is to record and report the full cost of
 each entity’s operation. A corresponding revenue, Imputed Financing Sources, is recognized to the extent pension
 and other retirement benefit expenses exceed the amount paid to the Office of Personnel Management (OPM).

H. Recognition of Financing Sources and Appropriations Used

 FNS receives the majority of the funding it needs to support its programs through annual and multi-year
 appropriations. FNS recognizes appropriations as used at the time that program or administrative expenses
 are paid. FNS recognizes appropriations expended for capitalized property or equipment as expenses when
 the assets are purchased. Appropriations used is the amount of appropriations expended during the current
 period to fund FNS’ nutrition programs. This includes the NPA appropriation, which provides funds for
 salaries and administrative expenses.

 At the time grant awards are established, FNS records obligations for the full amount of expected program
 expenses as unexpended obligations-unpaid (undelivered orders). Reductions in unexpended obligations
 occur as expenses are incurred by grantees. At year-end, grant obligations are accrued and reflected on
 statements as accounts payable. At grant closeout, the unused portions of grant awards are deobligated,
 increasing the unobligated balances and are shown on the balance sheet as part of unexpended
 appropriations. Unobligated balances available for future periods are also shown as unexpended
 appropriations.

I. Fund Balance With Treasury Accounts

The Fund Balance with Treasury represents the aggregate amount of funds in the FNS accounts with Treasury for
which the agency is authorized to make expenditures and pay liabilities. The FNS Fund Balance with Treasury is
primarily appropriated funds.




                                                      Page 35
               FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                   NOTES TO THE FINANCIAL STATEMENTS




Note 2. Non-Entity Assets



                                                                         2008                  FY 2007
Intragovernmental:
  Fund balance with Treasury                                              $1                        $1
  Investments                                                              -                         -
  Accounts Receivable                                                      -                         -
  Loans Receivable                                                         -                         -
  Other                                                                    -                         -
Total Intragovernmental                                                    1                         1
With The Public
  Cash and other monetary assets                                           -                         -
  Accounts receivable                                                     34                        34
  Taxes receivable                                                         -                         -
  Loan receivable and related foreclosed property                          -                         -
  Inventory and related porperty                                           -                         -
  Other                                                                    -                         -
Total With the Public                                                     34                        34

Total non-entity assets                                                   35                        35

Total entity assets                                                    19,091                   19,563

Total assets                                            $              19,126   $               19,598

FNS’ Non-Entity Asset, ―Fund Balance with Treasury‖ consists of funds held in FNS’ Food Stamp Redemption
Account. FNS’ Accounts Receivable consists of FNS’ Miscellaneous Receipts, Interest, Fines & Penalties, and
Miscellaneous Receipts for Cancelled Years.




                                                Page 36
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                        NOTES TO THE FINANCIAL STATEMENTS




Note 3. Fund Balance with Treasury


 Fund Balances:                                                    FY 2008                    FY 2007
    Trust Funds                                               $             - $                      -
    Revolving Funds                                                         -                        -
    Appropriated Funds                                                 18,545                   19,043
    Other Fund Types                                                        1                        1
 Total                                                                 18,546                   19,044

 Status of Fund Balance with Treasury:
 Unobligated Balance:
    Available                                                             974                      639
    Unavailable                                                        13,283                   14,253
 Obligated Balance not yet Disbursed                                    4,288                    4,154
 Non-Budgetary Fund Balance with Treasury:
 Clearing Account Balances                                                  1                       (2)
 Borrowing Authority not Yet Converted to Fund Balance                      -                        -
 Total                                                        $        18,546 $                 19,044



Note 4. Accounts Receivable,Net

                                               Allowance for
                         Gross Accounts        Uncollectible            Accounts
     FY 2008             Receivable            Accounts                 Receivable, Net

Intragovernmental        $                 -    $                  -    $                 -

With the Public          $             266      $                  5    $           261

 Total                   $             266      $                  5    $           261




                                               Allowance for
                         Gross Accounts        Uncollectible            Accounts
     FY 2007             Receivable            Accounts                 Receivable, Net

Intragovernmental        $                 -    $                  -    $                 -

With the Public          $             240      $                  5    $           235

 Total                   $             240      $                  5    $           235




                                                         Page 37
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                       NOTES TO THE FINANCIAL STATEMENTS




 (1) See Note 1.D. for further explanation of FNS’ accounts receivable activity with the public.

Note 5. General Property, Plant and Equipment

Property and equipment are depreciated over their useful economic lives, which average 5-10 years, using
the straight-line method. For FY 2008 FNS’ capitalization threshold for property and equipment is $25
thousand. FNS’ capitalization threshold for internal-use software is $100 thousand. FNS owns no buildings
or land. FNS follows recognition and measurement criteria in SFFAS No. 6 as amended by SFFAS No. 11
and 23, and USDA Departmental Regulation 2200-002, dated December 24, 2003. At year end, balances
for Property, Plant, and Equipment were as follows:

  FY 2008                                              Useful                                                      Net
                                                        Life                                   Accumulated        Book
  Category                                            (Years)              Cost                Depreciation       Value
  Land and Land Rights                                            $               -        $             -        $   -
  Improvements to Land                                                                 -                      -            -
  Construction-in-Progress                                                             -                      -            -
  Buildings, Improvements and Renovations                                              -                      -            -
  Other Structures and Facilities                                                      -                      -            -
  Equipment                                            5-10                            5                      3            2
  Assets Under Capital Lease                                                           -                      -            -
  Leasehold Improvements                                                               -                      -            -
  Internal-Use Software                                 5                             31                     23            8
  Internal-Use Software in Development                                                 -                      -            -
  Other Natural Resources                                                              -                      -            -
  Other General Property, Plant and Equipment                                          -                      -            -
    Total                                                         $                   36   $                 26   $       10

  FY 2007                                              Useful                                                      Net
                                                        Life                                   Accumulated        Book
  Category                                            (Years)           Cost                   Depreciation       Value
  Land and Land Rights                                            $               -        $             -        $   -
  Improvements to Land                                                             -                      -            -
  Construction-in-Progress                                                         -                      -            -
  Buildings, Improvements and Renovations                                          -                      -            -
  Other Structures and Facilities                                                  -                      -            -
  Equipment                                            5-10                        3                      2            1
  Assets Under Capital Lease                                                       -                      -            -
  Leasehold Improvements                                                           -                      -            -
  Internal-Use Software                                 5                         31                     17           14
  Internal-Use Software in Development                                             -                      -            -
  Other Natural Resources                                                          -                      -            -
  Other General Property, Plant and Equipment                                      -                      -            -
    Total                                                         $               34       $             19       $   15




                                                    Page 38
                      FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                               NOTES TO THE FINANCIAL STATEMENTS




 Note 6. Other Assets

                                                                                    FY 2008             FY 2007
Intragovernmental:
   Advances to Others                                                           $          -       $                     -
   Prepayments                                                                               -                             -
   Other Assets                                                                            309                           302
Total Intragovernmental                                                                    309                           302

With the Public:
  Advances to Others                                                                           -                             -
  Prepayments                                                                                  -                             -
  Other Assets                                                                                 -                             1
Total With the Public                                                                          -                             1


Total Other Asssets                                                             $          309     $                     303


FNS’ ―Intragovernmental-Other Assets‖ consist of Advances to Farm Service Agency/Commodity Credit
Corporation for the purchase of commodities.

Note 7. Liabilities Not Covered by Budgetary Resources


  Intragovernmental:                                                                FY 2008            FY 2007
     Accounts payable                                                       $            -     $                   -
     Debt                                                                                  -                        -
     Other                                                                                 1                        1
  Total Intragovernmental                                                                  1                        1
  With the Public:                                                                         -                        -
  Accounts Payable                                                                         -                        -
  Debt held by the public                                                                  -                        -
  Federal employee and veterans' benefits                                                  7                        7
  Environmental and disposal liabilities                                                   -                        -
  Benefits due and payable                                                                 -                        -
  Other                                                                                   10                       10
  Total With the Public                                                                  17                        17


  Total liabilities not covered by budgetary resources                                   18                        18


  Total liabilities covered by budgetary resources                                     3,574                     3,556

  Total liabilities                                                         $          3,592   $                 3,574



 FNS’ ―Intragovernmental-Other Liabilities‖ consist of Unfunded FECA Liability. FNS’ ―With the Public-
 Other Liabilities‖ consist of Custodial Liability and Unfunded Leave.




                                                            Page 39
                      FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                            NOTES TO THE FINANCIAL STATEMENTS




Note 8. Other Liabilities

   FY 2008                                                        Non-Current         Current       Total
   Intragovernmantal:
     Contract Holdbacks                                    $              -       $      -      $    -
     Other Accrued Liabilities                                                -           1           1
     Employer Contributions and Payroll Taxes                                 -           1           1
     Other Post-Employement Benefits Due and Payable                          -           -           -
     Unfunded FECA Liability                                                  -           1           1
     Other Unfunded Employment Related Liability                              -           -           -
     Advances from Others                                                     -           -           -
     Deferred Credits                                                         -           -           -
     Liability for Deposit Funds, Clearing Accounts                           -           -           -
     Contingent Liabilities                                                   -           -           -
     Capital Lease Liability                                                  -           -           -
     Liability for Subsidy Related to Undisbursed Loans                       -           -           -
     Accounts Payable from Canceled Appropriations                            -           -           -
     Resources Payable to Treasury                                            -           -           -
     Custodial Liability                                                      -          34          34
     Other Liabilities                                                        -           -           -
   Total Intragovernmental                                                    -          37          37

   With the Public:
    Contract Holdbacks                                                        -           -           -
    Other Accrued Liabilities                                                 -         770         770
    Accrued Funded Payroll and Leave                                          -           -           -
    Withholdings Payable                                                      -           -           -
    Employer Contributions and Payroll Taxes Payable                          -           -           -
    Other Post-Employment Benefits Due and Payable                            -           -           -
    Pension Benefits Due and Payable to Beneficiaries                         -           -           -
    Benefit Premiums Payable to Carriers                                      -           -           -
    Life Insurance Benefits Due and Payable                                   -           -           -
    Unfunded Leave                                                            -          10          10
    Other Unfunded Employment Related Liability                               -           -           -
    Advances from Others                                                      -           -           -
    Deferred Credits                                                          -           -           -
    Liability for Deposit Funds, Clearing Accounts                            -           1           1
    Prior Liens Outstainding or Acquired Collateral                           -           -           -
    Contingent Liabilities                                                    -           -           -
    Capital Lease Liability                                                   -           -           -
    Accounts Payable from Canceled Appropriations                             -           -           -
    Custodial Liability                                                       -           -           -
    Other Liabilities                                                         -           -           -
   Total With the Public                                                      -         781         781

   Total Other Liabilities                                 $                  -   $     818     $   818




                                                          Page 40
                   FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                         NOTES TO THE FINANCIAL STATEMENTS




FY 2007                                                          Non-Current         Current       Total
Intragovernmantal:
  Contract Holdbacks                                     $              -        $      -      $    -
  Other Accrued Liabilities                                                  -           2           2
  Employer Contributions and Payroll Taxes                                   -           1           1
  Other Post-Employement Benefits Due and Payable                            -           -           -
  Unfunded FECA Liability                                                    -           1           1
  Other Unfunded Employment Related Liability                                -           -           -
  Advances from Others                                                       -          (2)         (2)
  Deferred Credits                                                           -           -           -
  Liability for Deposit Funds, Clearing Accounts                             -          (2)         (2)
  Contingent Liabilities                                                     -           -           -
  Capital Lease Liability                                                    -           -           -
  Liability for Subsidy Related to Undisbursed Loans                         -           -           -
  Accounts Payable from Canceled Appropriations                              -           -           -
  Resources Payable to Treasury                                              -           -           -
  Custodial Liability                                                        -          34          34
  Other Liabilities                                                          -           -           -
Total Intragovernmental                                                      -          34          34

With the Public:
 Contract Holdbacks                                                          -           -           -
 Other Accrued Liabilities                                                   -         655         655
 Accrued Funded Payroll and Leave                                            -           -           -
 Withholdings Payable                                                        -           -           -
 Employer Contributions and Payroll Taxes Payable                            -           -           -
 Other Post-Employment Benefits Due and Payable                              -           -           -
 Pension Benefits Due and Payable to Beneficiaries                           -           -           -
 Benefit Premiums Payable to Carriers                                        -           -           -
 Life Insurance Benefits Due and Payable                                     -           -           -
 Unfunded Leave                                                              -          10          10
 Other Unfunded Employment Related Liability                                 -           -           -
 Advances from Others                                                        -           2           2
 Deferred Credits                                                            -           -           -
 Liability for Deposit Funds, Clearing Accounts                              -           -           -
 Prior Liens Outstainding or Acquired Collateral                             -           -           -
 Contingent Liabilities                                                      -           -           -
 Capital Lease Liability                                                     -           -           -
 Accounts Payable from Canceled Appropriations                               -           -           -
 Custodial Liability                                                         -           -           -
 Other Liabilities                                                           -           -           -
Total With the Public                                                        -         667         667

Total Other Liabilities                                  $                   -   $     701     $   701




                                                       Page 41
              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                 NOTES TO THE FINANCIAL STATEMENTS




Note 9. Intragovernmental Cost and Exchange Revenue

     Child Nutrition                              FY 2008                FY 2007

     Intragovernmental Costs                  $            602       $                653
     Public Costs                             $         13,892       $             13,094
     Total Costs                              $         14,494       $             13,747

     Intragovernmental Earned Revenue         $                -     $                  -
     Public Earned Revenue                    $                -     $                  -
     Total Earned Revenue                     $                -     $                  -

     Food Stamp

     Intragovernmental Costs                  $             81       $                 61
     Public Costs                             $         39,095       $             34,726
     Total Costs                              $         39,176       $             34,787

     Intragovernmental Earned Revenue         $               -      $                 -
     Public Earned Revenue                    $              27      $                20
     Total Earned Revenue                     $              27      $                20

     Other                                        FY 2008                FY 2007

     Intragovernmental Costs                  $             121      $                104
     Public Costs                             $             275      $                240
     Total Costs                              $             396      $                344

     Intragovernmental Earned Revenue         $                1     $                  2
     Public Earned Revenue                    $                -     $                  -
     Total Earned Revenue                     $                1     $                  2


     Women, Infants & Children

     Intragovernmental Costs                  $               -      $                  1
     Public Costs                             $           6,251      $              5,250
     Total Costs                              $           6,251      $              5,251

     Intragovernmental Earned Revenue         $                -     $                  -
     Public Earned Revenue                    $                -     $                  -
     Total Earned Revenue                     $                -     $                  -




                                              Page 42
                     FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                                NOTES TO THE FINANCIAL STATEMENTS




       Commodity Assistance Program                                FY 2008                FY 2007

       Intragovernmental Costs                                 $              12      $                         20
       Public Costs                                            $             223      $                        199
       Total Costs                                             $             235      $                        219

       Intragovernmental Earned Revenue                        $                  -   $                           -
       Public Earned Revenue                                   $                  -   $                           2
       Total Earned Revenue                                    $                  -   $                           2


FNS’ intragovernmental costs are exchange transactions made between FNS and another entity
within the Federal government. FNS cost with the public are exchange transactions made between FNS
and a non-Federal entity. FNS’ intragovernmental exchange revenues are exchange transactions made
between FNS and another entity within the Federal government. FNS exchange revenues with the public
are exchange transactions made between FNS and a non-Federal entity.

Note 10. Program Costs By Segment
For the year ended September 30, 2008
                                                                        Women Commodit
                                                                        Infants     y
                Intragovernmental       CHILD NUTRITION   FOOD STAMP       &    Assistance    OTHER       Consolidated Total



   Total Gross Costs                             14,494       39,176      6,251       235        396               60,552

   Less Earned Revenue:                               0            27         0           0           1                28

   Net Goal Costs:                               14,494       39,149      6,251       235        395               60,524


   Net Cost of Operations                                                                                          60,524




For the year ended September 30, 2007
                                                                        Women Commodit
                                                                        Infants     y
                Intragovernmental       CHILD NUTRITION   FOOD STAMP       &    Assistance    OTHER       Consolidated Total



   Total Gross Costs                             13,747       34,787      5,251       219        344               54,348

   Less Earned Revenue:                               0            20         0           2           2                24

   Net Goal Costs:                               13,747       34,767      5,251       217        342               54,324


   Net Cost of Operations                                                                                          54,324




                                                              Page 43
                   FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                         NOTES TO THE FINANCIAL STATEMENTS




Note 11. Exchange Revenues

FNS’ earned revenue from nonfederal parties consists largely of the $25.4 from the state option food stamp program.

On June 12, 1997, the President signed into law the Supplemental Appropriations Act, Public Law 105-18. This law
authorized the state option food stamp program (SOFSP). In this program, States issue food stamp benefits through
the Federal government for use in a State-funded food assistance program for legal immigrants, and childless, able-
bodied adults ineligible for the Food Stamp Program.

States operating a SOSFP utilize FNS’ FSP infrastructure. That is, they utilized electronic benefits transfer (EBT)
issued benefits from FNS which are transacted at FNS authorized FSP retailers. These benefits are subsequently
redeemed through the Federal Reserve Banking (FRB) system.

Prior to issuance, States are required to remit payment to FNS for the amount of the benefits issued as well as
reimburse FNS for the costs of redeeming benefits. During fiscal year 2008, 3 States participated in this program,
which generated earned revenues of $25.4.


Note 12. Apportionment Categories of Obligations Incurred: Direct vs Reimbursable Obligations

    FY 2008                              Direct                     Reimbursable            Total
Apportionment by Fiscal Quarter      $            60,602   $                       28   $           60,630
Apportionment for Special Activities                   -                            -                    -
Exempt from Apportionment                              -                            -                    -
Total Obligations Incurred           $            60,602   $                       28   $           60,630


    FY 2007                              Direct                     Reimbursable            Total
Apportionment by Fiscal Quarter      $            54,372   $                       24   $           54,396
Apportionment for Special Activities                   -                            -                    -
Exempt from Apportionment                              -                            -                    -
Total Obligations Incurred           $            54,372   $                       24   $           54,396




Note 13.Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United
States Government

Differences exist between FNS’ FY 2007 Statement of Budgetary Resources (SBR) (as provided to the Department
for consolidation purposes) and the FY 2007 actual numbers presented in the FY 2009 Budget of the United State
Government (Budget). These differences are summarized below:

            Description                     Budgetary Resources                               Outlays

            2007 SBR                                $ 69,288                                 $53,563

Less: Expired Accounts not                            $8,350                                        $0
Included in Budget

Add: Parent Child Relationship                                 $9                                   $5
(CSREES)




                                                           Page 44
                   FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                          NOTES TO THE FINANCIAL STATEMENTS




Add: Differences due to                                  $(1)                                     $1
Rounding


Budget of the U.S.                                   $60,946                             $53,569
Government



The actual numbers for the President’s Budget has not yet been published as of FNS’ FY 2008 financial statements,
and it is expected that the actual numbers will be published in February of the following fiscal year and will be
available on the website at www.whitehouse.gov.

Note 14. Undelivered Orders at the end of the Period

Budgetary resources obligated for undelivered orders as of September 30, 2008 and 2007 was $780 and $663, respectively.

Note 15. Incidental Custodial Collections


Revenue Activity:                                                             FY 2008                  FY 2007
  Sources of Collections:
  Miscellaneous                                                          $              (8) $                         (12)
Total Cash Collections                                                                  (8)                           (12)
Accrual Adjustments                                                                      -                             3
Total Custodial Revenue                                                                 (8)                            (9)
Disposition of Collections:
Transferred to Others:
    Treasury                                                                            -                              -
    States and Counties                                                                 -                              -
( Increase )/Decrease in Amounts Yet to be Transferred                                  8                              9
Refunds and Other Payments                                                              -                              -
Retained by the Reporting Entity                                                        -                              -
Net Custodial Activity                                                   $               -    $                         -




FNS’ FY 2008 custodial activity represents all accounts receivable activity related to canceled year appropriations
for interest, fines & penalties assessed and collected. For example, civil money penalties, interest, retailer and
wholesaler fines and penalties. (See Note 1D., ―Accounts Receivable‖, for further disclosures on FNS’ collection
activities). FNS transfers these types of collections to the Department of Treasury. FNS’ custodial collection
activities are considered immaterial and incidental to the mission of FNS.




                                                         Page 45
                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                        NOTES TO THE FINANCIAL STATEMENTS




Note 16. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of Financing)

Resources Used to Finance Activities:                                          FY 2008             FY2007

Budgetary Resources Obligated

    Obligations Incurred                                                       $ 60,630        $ 54,396
    Less: Spending authority from offsetting collections and recoveries               722            845
                                                                                 ------------    -----------
    Obligations net of offsetting collections and recoveries                      59,908         53,551
    Less: Offsetting receipts                                                            1            -
                                                                                 ------------    -----------
    Net Obligations                                                                59,907       53,551
                                                                                  ------------   -----------
    Other Resources
    Donations and forfeitures of property                                              -                  -
    Transfers in (out) without reimbursement                                           -                 -
    Imputed financing from costs absorbed by others                                   758             792
    Other                                                                              -                -
                                                                                  ------------      -----------
    Net other resources used to finance activities                                   758               792

                                                                                   FY 2008          FY 2007

    Total resources used to finance activities                                      60,665            54,342

    Resources Used to Finance Items not Part of the Net Cost of Operations:
    Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided                                                        (121)             (26)
    Resources that fund expenses recognized in prior periods                                 (1)                    -
    Budgetary offsetting collections and receipts that do not
    affect net cost of operations
       Credit Program collections which increases liabilities for
       loan guarantees or allowances for subsidy                                          -                 -
       Change in Unfilled Customer Orders                                                     -             (3)
       Decrease in exchange revenue receivable from the public                            -                 -
       Other                                                                              -                  -
    Resources that finance the acquisition of assets                                     (1)                 -
    Other resources or adjustments to net obligated resources that
   do not affect net cost of operations                                                    2                -
                                                                                     -----------    -------------
    Total resources used to finance items not part of the net cost
    of operations                                                                      ( 121)            (29)
                                                                                     -----------     ------------

    Total resources used to finance the net cost of operations                       60,544          54,313




                                                      Page 46
            FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2008
                                  NOTES TO THE FINANCIAL STATEMENTS




Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability                                         -                -
   Increase in environmental and disposal liability                           -                 -
   Upward/Downward reestimates of credit subsidy expense                     -                -
   Increase in exchange revenue receivable from the public                  -                -
   Other                                                                  (33)               1
                                                                      ----------      -----------
  Total components of Net Cost of Operations that will require or
   generate resources in future periods                                  (33)                1
Components not Requiring or Generating Resources:
   Depreciation and amortization                                            6               10
   Revaluation of assets or liabilities                                     -                -
   Other Components not Requiring or Generating Resources:
      Bad Debt Expense                                                     12                1
      Cost of Goods Sold                                                    -                 -
      Other                                                                (5)              (1)
                                                                       -----------     ----------
   Total components of Net Cost of Operations that will not require
   or generate resources                                                  13              10
                                                                        -----------    ----------

   Total components of Net Cost of Operations that will not require
   or generate resources in the current period                              (20)           11
                                                                         ----------    ----------

   Net Cost of Operations                                             $ 60,524 $ 54, 324




                                               Page 47
FOOD AND NUTRITION SERVICE

                          REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION

                                          STEWARDSHIP INVESTMENTS

                                        (Amounts shown are in millions)


Human Capital

1. A. Food Stamp Program

     B. Program Expense                             2008        2007

        1. Employment and Training                   $36         $51

FNS’ human capital consist of employment and training (E&T) for the Food Stamp Program. The E&T program
requires recipients of food stamp benefits to participate in an employment and training program as a condition to
food stamp eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 779,173 work registrants subject to the 3 - month Food Stamp Program participant limit and
1,318,019 work registrants not subject to the limit in either job-search, job-training, job-workfare, education, or
work experience.

Nonfederal Physical Property

1.    A. Food Stamp Program

      B. Program Expense                           2008        2007

          1. ADP Equipment & Systems                $32        $20

FNS’ nonfederal physical property consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Food Stamp Program. The total Food Stamp Program
Expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial statements.

2.    A. Special Supplemental Nutrition Program for Women, Infants and Children (WIC)

      B. Program Expense                           2008        2007

          1. ADP Equipment & Systems                 $11       $15

FNS’ nonfederal physical property also consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Special Supplemental Nutrition Program for Women, Infants
and Children (WIC).




                                                      Page 48
